<html>
<title> - [H.A.S.C. No. 113-71] U.S. ASIA-PACIFIC STRATEGIC CONSIDERATIONS RELATED TO PEOPLE'S LIBERATION ARMY NAVAL FORCES MODERNIZATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-71] 
         U.S. ASIA-PACIFIC STRATEGIC CONSIDERATIONS RELATED TO 
          PEOPLE'S LIBERATION ARMY NAVAL FORCES MODERNIZATION 

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           DECEMBER 11, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
86-078                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>  
  

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
                 Heath Bope, Professional Staff Member
                Douglas Bush, Professional Staff Member
                         Nicholas Rodman, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, December 11, 2013, U.S. Asia-Pacific Strategic 
  Considerations Related to People's Liberation Army Naval Forces 
  Modernization..................................................     1

Appendix:

Wednesday, December 11, 2013.....................................    23
                              ----------                              

                      WEDNESDAY, DECEMBER 11, 2013
    U.S. ASIA-PACIFIC STRATEGIC CONSIDERATIONS RELATED TO PEOPLE'S 
               LIBERATION ARMY NAVAL FORCES MODERNIZATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Cropsey, Dr. Seth, Senior Fellow, Hudson Institute...............     6
Erickson, Dr. Andrew, Associate Professor, China Maritime Studies 
  Institute, U.S. Naval War College..............................     2
O'Rourke, Ronald, Specialist in Naval Affairs, Congressional 
  Research Service...............................................     4
Thomas, Jim, Vice President and Director of Studies, Center for 
  Strategic and Budgetary Assessments............................     9

                                APPENDIX

Prepared Statements:

    Cropsey, Dr. Seth............................................    67
    Erickson, Dr. Andrew.........................................    31
    Forbes, Hon. J. Randy........................................    27
    McIntyre, Hon. Mike..........................................    29
    O'Rourke, Ronald.............................................    47
    Thomas, Jim..................................................    74

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    89
    Mr. Langevin.................................................   105
      

    U.S. ASIA-PACIFIC STRATEGIC CONSIDERATIONS RELATED TO PEOPLE'S 
               LIBERATION ARMY NAVAL FORCES MODERNIZATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                      Washington, DC, Wednesday, December 11, 2013.
    The subcommittee met, pursuant to call, at 4:34 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I would like to welcome everyone to our 
Seapower and Projection Forces Subcommittee hearing today on 
the People's Liberation Army [PLA] naval modernization efforts. 
This is a continuation of the Asia-Pacific oversight series 
that the full committee kicked off last month.
    I want to apologize to our witnesses for the delay, based 
on those votes, but thank you for your patience.
    In just a few weeks, recent developments in the East China 
Sea have demonstrated that improving our understanding of 
regional events and key players is critical to assuring our 
allies and partners of U.S. commitment to the region and 
protecting U.S. interests. Tensions in the East and South China 
Seas have been ongoing now for several years as China attempts 
to exert its influence in claiming land, sea, and airspace that 
is clearly beyond their internationally recognized borders. 
While naval modernization is a natural development for any 
seafaring nation such as China, it is clear the modernization 
is emboldening the Chinese Government to exert their interests 
by bullying their neighbors and pushing back the United States 
in the Asia-Pacific region. Therefore, it is also critical that 
we exercise congressional oversight of those requisite U.S. 
Navy capabilities that will be needed to counter any anti-
access and area-denial capabilities the PLA Navy is rapidly 
developing as they modernize and expand their fleet.
    We also must understand how to engage with the PLA Navy in 
a manner that is constructive for all parties involved and 
demonstrates respect and adherence to established international 
norms of maritime conduct. I hope our witnesses can provide 
insight to these key issues.
    I would like to thank our distinguished panel of witnesses 
for appearing before the subcommittee today. And we have 
testifying before us Dr. Andrew Erickson, associate professor 
at the China Maritime Studies Institute of the U.S. Naval War 
College; Mr. Ronald O'Rourke, specialist in naval affairs at 
the Congressional Research Service; Dr. Seth Cropsey, senior 
fellow at the Hudson Institute; and Mr. Jim Thomas, vice 
president and director of studies at the Center for Strategic 
and Budgetary Assessments. We look forward to your testimony.
    And with that, I would like to turn to my good friend Mike 
McIntyre, but I understand he is not here. So, Mr. Courtney, I 
will recognize you for any remarks you would like to make 
sitting in for Mr. McIntyre.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 27.]
    Mr. Courtney. Thank you, my friend and chairman of the 
subcommittee, Mr. Forbes, for holding this hearing. In many 
ways, this is one of the most topical subject matters that we 
could have for the Congress.
    Mike had prepared some opening remarks. So, again, what I 
would just ask is unanimous consent to submit those for the 
record and look forward to hearing from the witnesses.
    [The prepared statement of Mr. McIntyre can be found in the 
Appendix on page 29.]
    Mr. Forbes. Without objection, we will make those part of 
the record.
    I would also like to recognize my good friend and co-lead 
for our Asia-Pacific series, the gentlelady from Hawaii, Ms. 
Colleen Hanabusa, for any remarks she may have.
    Ms. Hanabusa. Thank you, Mr. Chairman. I will be very 
brief.
    I just want to say that one of the things that a good 
friend of mine who has passed and a great mentor, Senator 
Inouye, told me, I think it is very appropriate for these 
hearings. He had said to me, he says, you know, after World War 
II, the United States dominated the seven seas. He said, if we 
do that now, he says, I would be really surprised. He says, 
but, he says, never forget the one thing: We will always 
dominate the deep blue sea.
    So with that, I look forward to hearing from all of you. 
Thank you very much.
    Mr. Forbes. Thank you, Colleen.
    And now we will start. And I don't know which order we 
want. Mr. Thomas, were you going to start, or Dr. Erickson?
    Okay. Dr. Erickson, they will let you start, and we thank 
you once again for your patience in being here with us, and we 
look forward to your remarks.

 STATEMENT OF DR. ANDREW ERICKSON, ASSOCIATE PROFESSOR, CHINA 
       MARITIME STUDIES INSTITUTE, U.S. NAVAL WAR COLLEGE

    Dr. Erickson. Chairman Forbes, Congressman Courtney, 
distinguished members of the subcommittee, thank you for this 
opportunity. I am testifying as an individual, not as a 
representative of the U.S. Navy. While I have submitted a 
detailed statement for the record, allow me to highlight the 
issues I believe are most pertinent to the subcommittee's vital 
work.
    In contrast to ongoing limitations, shared interests, and 
even opportunities for cooperation far away, China's navy and 
other services are achieving formidable anti-access/area-
denial, A2/AD, capabilities closer to shore. Beijing seeks to 
wield this growing might to carve out in the Yellow, East, and 
South China Seas an airspace above them, a zone of 
exceptionalism within which existing global security, legal, 
and resource management norms are subordinated to its parochial 
national interests. This threatens to weaken the global system 
on which all nations' security and prosperity depends, and to 
destabilize a vital but vulnerable region that remains haunted 
by history.
    To ensure that Beijing cannot use force or the threat of 
force to change the status quo in the Asia-Pacific, the U.S. 
must maintain military capabilities to deter any threatening or 
aggressive actions by China, even as the two nations cooperate 
in areas of shared interest. Given the inherent defensiveness 
of the U.S. approach, it should be possible to meet core 
objectives at an affordable price through the most critical 
timeframe, likely over the coming decade, with a bottom-line 
strategy of deterrence by denial.
    Washington must be careful not to compete with Beijing in 
excessively expensive and ultimately ineffective arms 
competitions. It should not counter China's A2/AD weapons by 
attempting to acquire a more sophisticated counter in each and 
every instance. It must also avoid the temptation to embrace 
approaches such as mainland strikes that would be unduly 
escalatory or counterproductive and lack the credibility to 
deter Beijing through their threatened use over issues in the 
East and South China Seas, given a disparity of national 
interests. A distant blockade, also escalatory, is likewise 
unfeasible because of the logistical difficulty of 
implementation in a dynamic commercial world.
    Instead, as China works to deny U.S. forces an ability to 
operate close to the mainland, the U.S. aim at a minimum should 
be to deny China the ability to resolve territorial and 
maritime disputes by the use of force. To resolve disputes 
conclusively, China would have to seize and hold territory as 
well as resupply its forces. This is inherently difficult on 
small islands, where geography imposes vulnerability.
    To demonstrate that China cannot achieve this, and thereby 
deter it from ever trying to do so, the U.S. and its allies 
should maximize disruption capabilities, their own form of A2/
AD. The U.S. should, therefore, develop, deploy, and 
demonstrate in a measured, targeted fashion the capability to 
deny China the ability to seize and hold offshore territories. 
Here some pages can be taken from China's own A2/AD playbook.
    Military capabilities are based on a complex system of 
hardware and software. Amid this, certain platforms and weapons 
offer disproportionate benefits, including submarines, 
missiles, and sea mines. The tight fiscal environment and 
threat timeline places a premium on deploying and maintaining 
existing platforms and weapons systems with proven technologies 
in limited numbers as rapidly and effectively as possible.
    The most promising approach is to hold and build on 
formidable U.S. undersea advantages to which China lacks 
effective countermeasures and would have to invest vastly 
disproportionate resources in a slow, likely futile effort to 
close the gap. It is, therefore, essential to ensure the 
present two-a-year construction rate of Virginia-class nuclear-
powered attack submarines, SSNs, ideal for denying the ability 
to China to hold and resupply any forcefully seized islands. 
The Virginia payload module allows for useful increases in 
missile capacity. Given China's ongoing limitations in 
antisubmarine warfare and the inherent difficulty of 
progressing in this field, China could spend many times the 
cost of these SSNs and still not be able to counter them 
effectively.
    Additionally, more can be done to better equip U.S. 
platforms, such as submarines. The U.S. should do far more with 
missiles, particularly with anti-ship cruise missiles. Recent 
tests of the long-range anti-ship missile, LRASM, represent a 
step in the right direction, but more ought to be done in this 
regard. Offensive naval mine warfare is another underexploited 
area that offers maximum bang for the buck.
    U.S. submarines can oppose any Chinese naval forces engaged 
in an invasion, resupply, and protection. Long-range air or 
missile delivery can blow any lodgement off disputed islands or 
rocks. To be sure, both U.S. SSNs and LRASMs and Chinese A2/AD 
forces could achieve denial effects. Long-range surface-to-air 
and air missiles from both sides might hold air operations over 
the features in question at risk, prevent continuous 
operations, or even fully create a no man's land. U.S. forces 
other than SSNs might not be able to operate without assuming 
great risk and hence be denied unfettered access. But Chinese 
forces would also not have access and would thereby be denied 
their objective of seizing and holding disputed territory.
    Demonstrating this to China would be an effective 
deterrent. Beijing could not afford to risk the likelihood of 
not achieving its objective in this regard. By adopting this 
deterrence-by-denial strategy, the U.S. can continue to 
preserve the peace in the Asia-Pacific, which has prospered 
during nearly seven decades of American protection. No other 
nation has the capability and lack of territorial claims 
necessary to play this still vital role.
    Thank you very much for your attention and for your 
continuing support for U.S. seapower. I look forward to your 
questions.
    [The prepared statement of Dr. Erickson can be found in the 
Appendix on page 31.]
    Mr. Forbes. Thank you, Dr. Erickson.
    And, Mr. O'Rourke, we welcome you back to this committee, 
and we appreciate your taking the time, look forward to your 
remarks.

  STATEMENT OF RONALD O'ROURKE, SPECIALIST IN NAVAL AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. O'Rourke. Chairman Forbes and Representatives Courtney, 
Hanabusa, and Conaway, thank you for the opportunity to appear 
before you today to discuss China's naval modernization effort.
    Chairman Forbes, with your permission, I would like to 
submit my statement for the record and summarize it here in a 
few brief remarks.
    Mr. Forbes. Each of our witnesses' statements will be 
submitted, without objection, to the record.
    Mr. O'Rourke. Top-level U.S. strategic considerations 
related to China's naval modernization effort include, among 
other things, the following: preventing the emergence of a 
regional hegemon in one part of Eurasia or another; preserving 
the U.S.-led international order that has operated since World 
War II; fulfilling U.S. treaty obligations; shaping the Asia-
Pacific region; and having a military strategy for China.
    China's naval modernization effort appears aimed at 
producing a regionally powerful navy with a limited but growing 
ability to conduct operations in more distant waters. A near-
term focus of China's naval modernization effort has been to 
develop military options for addressing the situation with 
Taiwan.
    Observers also believe that China's naval modernization 
effort is increasingly oriented toward additional goals, 
including the following: asserting or defending China's 
maritime territorial claims; enforcing China's view that it has 
the legal right to regulate foreign military activities in its 
exclusive economic zone; protecting China's sea lines of 
communications; protecting and evacuating Chinese nationals in 
foreign countries; displacing U.S. influence in the Pacific; 
and asserting China's status as a major world power. Consistent 
with these goals, observers believe China wants its military to 
be capable of acting as an A2/AD force.
    China's actions in recent years have suggested to some 
observers that China is pursuing an overarching goal of gaining 
greater control of China's near-seas region and of breaking out 
into the Pacific. If China were to achieve a position of being 
able to exert control over access to and activities within the 
near-seas region, it would have major implications for top-
level U.S. strategic considerations. It would constitute a 
major step toward China becoming a regional hegemon, pose a 
significant challenge to the preservation of the post-World War 
II international order, and substantially complicate the 
ability of the United States to fulfill treaty obligations to 
countries in the region and to shape the region's future. It 
would amount to a fundamental reordering of the Asia-Pacific 
security situation.
    Some observers have posited that China's growing 
capabilities will at some point compel U.S. Navy surface ships 
to remain outside China's A2/AD perimeter. That is far from 
clear, however, as the Navy has numerous options it can pursue 
for breaking the kill chains of China's maritime A2/AD weapons. 
Electromagnetic rail gun and high-powered lasers can be the 
U.S. Navy's own game changers for countering Chinese 
capabilities.
    To field such systems, the Navy would need to not only 
continue their development, but also procure ships with 
integrated electric drive systems or some other means of 
providing enough electrical power to support them. The Navy's 
30-year shipbuilding plan currently does not include any 
surface combatants that will clearly have enough electrical 
power to support lasers with more than a certain amount of 
strength.
    The geographic expanse of the Asia-Pacific and the 
potential advantages of being able to outrange Chinese systems 
when needed may focus attention on the option of acquiring 
long-range to carrier-based aircraft, such as the UCLASS 
[Unmanned Carrier-Launched Airborne Surveillance and Strike] 
manned aircraft, and long-range weapons such as the long-range 
anti-ship missile and a long-range air-to-air missile.
    Navy attack submarines can operate effectively well inside 
China's surface and air A2/AD perimeter. This can focus 
attention not only on the procurement of Virginia-class attack 
submarines, but also on other options for expanding the 
capabilities of the attack submarine force, such as the 
Virginia payload module.
    Operations by Chinese Coast Guard ships for asserting and 
defending China's maritime territorial claims close to the 
Philippines often go uncountered by equivalent Philippine 
forces because the Philippines has relatively few such ships. 
This may focus attention on the option of accelerating actions 
for expanding and modernizing the Philippines maritime defense 
and law enforcement capabilities.
    None of this precludes cooperating with China in maritime 
operations in areas where the two countries may have shared 
interests, such as antipiracy operations, search-and-rescue 
operations, and humanitarian assistance and disaster response 
operations. Such operations can provide an opportunity for 
demonstrating to China the benefits that China receives from 
the current international order and China's interest in 
preserving that order.
    Mr. Chairman, this concludes my statement. Thank you again 
for the opportunity to testify, and I look forward to the 
subcommittee's questions.
    [The prepared statement of Mr. O'Rourke can be found in the 
Appendix on page 47.]
    Mr. Forbes. Thank you, Mr. O'Rourke.
    Dr. Cropsey.

 STATEMENT OF DR. SETH CROPSEY, SENIOR FELLOW, HUDSON INSTITUTE

    Dr. Cropsey. Mr. Chairman, Congressman Courtney, 
distinguished members of the committee, it is an honor to speak 
before this committee. Thank you for your invitation.
    As dangerous as the threats posed by jihadism are, so far 
they don't approach the risks of open confrontation between the 
United States and the Soviet Union in the cold war. But the 
likelihood is that we will again face a larger challenge than 
the one the jihadists now present. No one is a better candidate 
to offer such a challenge than China, which is not to say that 
China is an enemy, or to predict that China will become an 
enemy. But it is clear the Chinese leaders are ambitious, and 
that their diplomatic policy and their military armament are 
moving them toward great power status, or at least regional 
hegemony, in a series of small steps designed to achieve these 
ends with minimal resistance from their Pacific competitors, 
America's allies.
    The U.S. is not taking this possibility as seriously as it 
should. This is different from the America of the 1920s and 
1930s. The generation that had experienced a World War learned 
the hard way why strategy was needed to be prepared for 
whatever the future might bring. Then, U.S. anticipated a 
potential future threat from Japan and acted to prepare for 
such a threat. In what was known as, as you know, War Plan 
Orange, U.S. military leadership devised and tested its 
strategy for a potential conflict with Japan, which evolved 
with new technology and tactics during the interwar period. It 
incorporated the critical roles of aircraft carriers and 
submarines, amphibious warfare, an island-hopping campaign, all 
of them new, in any potential Pacific conflict.
    The linchpin of this plan was the doctrine of ``advanced 
base'' strategy, the idea developed and exhaustively tested 
during the interwar period that a Pacific conflict with Japan 
could be won by securing the outlying archipelagos and islands 
of the theater. This would take place by amphibious assault 
that would secure American bases from which to launch offensive 
operations further and further into enemy territory. At the 
same time, it would deny the enemy territory from which to do 
the same. The result, the U.S. military had a strategy when the 
conflict broke out, one whose familiarity to officers improved 
its execution, and which was, in fact, highly successful.
    We have no such strategy toward China today. 
Diplomatically, the closest we have come is the long-standing 
effort that existed since the administration of George H.W. 
Bush to persuade China to become a stakeholder in the 
international system. One of the most fundamental principles of 
that system is respect for untrammeled navigation through 
international waters and airspace.
    The events of the past few weeks, as China declared an Air 
Defense Identification Zone over a large section of the East 
China Sea, show that they have no such respect. So, while 
efforts to persuade China to become a stakeholder in the 
international order should not be abandoned, we ought to 
understand that those efforts have proved of limited value in 
generating any positive effect on Chinese international 
behavior. To the extent that any American strategy hangs on our 
and the international community's attempt to transform China 
into a state that accepts the general principles of the 
international order, it has been a failure.
    The Obama administration's much publicized pivot to Asia is 
not a strategy for dealing with China. It is an idea which, if 
sensibly implemented, would preserve and increase our influence 
in the region. But so far all the hard power of the pivot is a 
minor element of the administration's preference for using soft 
power. The hard power consists of a Marine contingent in 
northern Australia that remains much smaller than the 
envisioned 2,500 Marine rotational force, eventually 4 littoral 
combat ships to be based in Singapore, and, as you know, a U.S. 
military budget that is being whittled away at a rate that 
alarms our allies in Asia and the rest of the world.
    A successful pivot to Asia would require more cooperation, 
especially with our Asia treaty allies, the most important of 
which is Japan. In the current and potentially risky matter of 
the People's Republic's recently declared Air Defense 
Identification Zone, Japan had said, as you know, that its 
commercial airliners would not identify themselves when passing 
through the airspace in question. At the same time, the State 
Department of the United States has urged American commercial 
flights to comply with the zone. I would not call this 
cooperation.
    China, by its own admission and actions, wants to deny us 
access to large parts of the Western Pacific. The Defense 
Department's response, a large part of it so far, has been a 
set of ideas, as you know, called the Air-Sea Battle [ASB]. The 
ASB itself is a plan for greater cooperation between the 
military services in gaining access where a potential enemy 
would deny it. Much like the pivot, or rebalance, it is not 
based on a strategy, and it is not a strategy toward China. In 
fact, as you know, it makes no mention of China.
    China's leaders are more tolerant of risk than the Soviet 
leaders were. The ASB talks about blinding a potential enemy's 
surveillance, reconnaissance, and intelligence capabilities. In 
China's case, this would mean striking targets on the mainland. 
The wisdom of this should be questioned. But the U.S. is not 
doing anything to turn even that idea into a strategic plan.
    There are other possible strategic approaches to the same 
problem of access denial; however, the first question that 
needs to be considered is what is the objective of any strategy 
toward China, and my colleagues here have already mentioned 
that. I agree with them. The answer is the same as our 
objective in World War I, World War II, and the cold war. In 
each of those, our objective was to prevent the rise of a 
hegemonic power on the European Continent. With China, our 
objective ought to be to prevent the rise of an Asian hegemon, 
a power that would destroy the current U.S. alliance system in 
Asia, dominate the world's most populous region economically 
and militarily, and perhaps extend itself into Eurasia and 
beyond.
    As in the U.S.'s experience in Europe, our first diplomatic 
objective in executing a strategy that seeks to prevent the 
rise of an Asian hegemon should be to establish an alliance of 
like-minded nations. This is very difficult because of ancient 
enmities in the region. But as the threat from China grows, 
current realities might eclipse fear. An important part of U.S. 
strategy toward China should be to prepare the groundwork now 
for such an alliance, one which establishes contingencies for 
repatriating allied business interests on the mainland back to 
allied countries, so as to exert economic pressure on the PRC 
[People's Republic of China] in the event of a conflict.
    As for the immediate problem of access denial, which does 
indeed require strategy to counter, there are approaches which 
don't require an attack on China's mainland. One would be to 
destroy the Chinese Navy at sea. Another would be to impose a 
blockade on Chinese merchant and naval shipping. Like the ASB, 
neither of these are being looked at as possible military 
strategies toward China, nor, as Dr. Erickson pointed out, the 
idea of denying them use of the islands, the disputed islands.
    What is clear is that any strategy to counter China's 
increasing access-denial capabilities should prioritize 
deterrence--which means readiness, sustainability, and 
overmatching firepower and defense--and be built upon an 
integration of the ground forces necessary to control the 
outlying islands, archipelagos, littorals, and straits of the 
Pacific with the naval and air power necessary to control the 
air and seas. Such a strategy should also include an increased 
focus on missile defense to protect civil and military 
infrastructure, sea and airports, and mobile warfare 
capabilities. And it should, I think, above all, be designed to 
give the U.S. the power to assemble a durable forward defense 
in the event of a long war.
    But however one regards these strategic ideas, the fact 
remains that we don't have any strategy toward the most 
populous nation in the world, one whose economic strength is 
considerable and in tandem with the military power its leaders 
are gradually accumulating to match their ambitions. My 
colleagues who are testifying here this afternoon are offering 
a thoughtful account of the hardware and tactics that support 
those ambitions. This needs to figure in our strategy as 
clearly as it does in China's.
    Thank you for the opportunity to address this committee, 
Mr. Chairman, and I look forward to your questions.
    [The prepared statement of Dr. Cropsey can be found in the 
Appendix on page 67.]
    Mr. Forbes. Thank you, Doctor.
    Mr. Thomas.

    STATEMENT OF JIM THOMAS, VICE PRESIDENT AND DIRECTOR OF 
    STUDIES, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Thomas. Chairman Forbes, Ranking Member McIntyre, and 
distinguished members of the subcommittee, let me add my thanks 
for convening these important hearings and inviting me to 
testify today. I will discuss key priorities for the PLA's 
naval modernization program and then turn to their implications 
for U.S. and allied operational and force planning.
    To begin, I think it is worth recalling just how far the 
PLA has come over the past decade. Chinese defense spending has 
increased from an estimated $45-$60 billion in 2003 to $135-
$215 billion today, roughly 25 to 40 percent of what DOD 
[Department of Defense] spends annually on our defense. Unlike 
the United States, however, with its competing global security 
responsibilities, China is able to focus its resources almost 
entirely on supporting its regional counterintervention 
strategy, which emphasizes the buildup of anti-access and area-
denial, or A2/AD, capabilities and its ability to conduct 
short, decisive campaigns before an outside party like the 
United States could intervene effectively.
    A decade ago China was also heavily reliant on Russian 
assistance and its armaments, but has increasingly shifted 
towards indigenous design and production. It is rapidly 
building up a modern submarine force while retiring its older 
submarines. Its advanced guided-missile destroyers represent a 
major improvement in fleet air defense and, along with advanced 
submarines, will allow China to protect its aircraft carriers 
while pushing its naval perimeter farther out into the Pacific.
    China is also fielding an armada of fast, smaller 
combatants armed with anti-ship missiles. Their numbers could 
create a significant tracking and targeting problem and make it 
far more difficult for foreign surface forces to safely 
approach within 200 nautical miles of China's coast.
    The PLA Navy also now operates more than 100 modern land-
based strike fighters, equipped with sophisticated avionics, 
sensors, and advanced air-to-air as well as anti-ship missiles 
that could be used to overwhelm the defensive countermeasures 
of U.S. and allied naval forces operating within their reach.
    Finally, although it is not technically part of its naval 
modernization program, China has placed priority on the 
development of an anti-ship ballistic missile. The DF-21D 
[Dong-Feng 21D] reached initial operating capability in 2010 
and has a range exceeding 930 miles. Its maneuverable warhead 
is optimized to attack large surface combatants, such as 
aircraft carriers, underway.
    The cumulative effect of all of these modernization efforts 
is that the military balance in the Western Pacific is shifting 
perceptibly, while U.S. costs to project power into the region 
are rising. There is no single silver-bullet approach to 
preserve the regional military balance. No one action alone can 
do it. Instead, the United States and its allies will have to 
undertake a combination of efforts to demonstrate their 
defensive strength in the face of China's challenge, including 
steps to, number one, counter hostile communications, command 
and control, computers, and intelligence, surveillance and 
reconnaissance networks by being able to conduct operations to 
degrade them, disrupt them, or spoof them. These efforts would 
help to reduce the PLA's ability to effectively employ their 
missiles against friendly forces. Ideally, this could be done 
with nonkinetic activities that don't require strikes on the 
mainland of China. But at the same time, I think it is probably 
imprudent to rule out such strikes as they contribute to our 
deterrent.
    Number two, we should be able to sustain operations inside 
hostile A2/AD envelopes by hardening our airbases against 
attack, improving our air and missile defenses, including with 
next-generation air defenses, as Mr. O'Rourke discussed, such 
as solid-state lasers and electromagnetic rail guns. It will 
also require the development of novel operating concepts as the 
U.S. Air Force and Marine Corps are now pursuing to facilitate 
distributed air operations from cluster airbases and ad hoc 
forward arming and refueling points for short-takeoff and 
vertical-landing aircraft.
    Number three, our forces will also need to be able to 
operate from beyond the range of hostile A2/AD networks. By 
increasing the range and payload and stealth of our carrier as 
well as our land-based aircraft, the strike payloads of our 
submarine force, and also developing newer long-range missile 
systems for both land attack and anti-ship missions, such as 
the long-range anti-ship missile.
    Number four, I believe our forces will need to build up 
allied and partner anti-access and area-denial capabilities to 
defend their own sovereignty by conducting air and sea denial 
operations, especially around the first island chain and in 
Southeast Asia. The U.S. Army and the U.S. Marine Corps in 
particular may have prominent roles to play in helping build up 
partners' air and sea denial capacities.
    And last, number five, I think the United States does need 
to be able to be prepared to conduct peripheral operations by 
capitalizing on the U.S.--the United States air and naval 
mastery beyond the reach of potential adversaries' A2/AD 
systems to conduct indirect, peripheral operations, like 
distant blockades.
    In closing, PLA naval modernization and the contested 
maritime environment it is creating offers a lens for 
evaluating U.S. strategic choices in a time of austerity with 
the objective of ensuring the U.S. military prioritizes the 
most viable elements of its forces to remain in the power 
projection business. That is why these hearings are so 
important.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 74.]
    Mr. Forbes. We thank all of our witnesses.
    I am going to defer my questions until the end. So I am 
going to recognize Mr. Conaway for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    Mr. Erickson and Mr. O'Rourke both talked about just the 
mere presence of a very strong submarine capability would 
somehow influence the Chinese to not put soldiers on all these 
outlying islands that they are trying to claim. But yet at the 
same time, we have just recently seen that they very 
effectively said--declared an air superiority zone that has now 
threatened commercial air traffic. And I guess commercial air 
traffic has actually left the area, and we are still running 
our planes through there.
    Two questions. One, what did you think the Chinese were 
trying to accomplish by the air superiority issue and--not 
superiority, but--the air dominance or assertion of airspace, 
what were they trying to accomplish with that? And how do you 
distinguish that bold move and our lack of response there to 
what a potential landing on one of these small rocks out there 
that is currently uninhabited and us actually using a submarine 
to do whatever it is you two guys think we would do to stop the 
Chinese in that regard?
    Dr. Erickson. Yes, Congressman, you have raised two very 
important issues here. And I think we have seen a very 
regrettable approach from China in terms of how they rolled out 
their Air Defense Identification Zone [ADIZ] in the East China 
Sea. I think this is related to a larger effort that I 
described to try to establish a zone of exceptionalism within 
the Yellow Sea, the East China Sea, and the South China Sea, an 
area in which they can try to subordinate international norms 
that undergird the effectiveness of the global system to their 
own national interests in a way that is not in concert with 
international law.
    I think there already has been a positive element of U.S. 
response. The B-52s being dispatched from Guam, I think, sends 
a very clear message that an ADIZ does not give one the right 
to regulate others' freedoms in that airspace.
    I think it is a different issue when we are talking about 
what submarines can deter and what submarines can do vis-a-vis 
these disputed territories whose status should not be resolved 
through the use of force or the threat of force. The capability 
of submarines speaks to operational situations that go beyond 
the peacetime scenario that we are seeing with the Air Defense 
Identification Zone. So demonstrating, if necessary, in a 
worst-case scenario the ability to use these submarines to 
prevent and to stop and to roll back that kind of seizure of 
territory, I think, can nevertheless be quite effective.
    Mr. Conaway. How will they prevent stopping?
    Dr. Erickson. The use of the submarines and their 
affiliated weapons systems can literally, if necessary----
    Mr. Conaway. The system has got to be fired. You can't just 
simply pop up on the top of the ocean there from a submerged 
position and stop something; you have actually got to go 
kinetic, don't you?
    Dr. Erickson. Yes. If necessary, as a last resort in a 
worst-case scenario, that is exactly what the submarines are 
good for. And even better news is the fact that demonstrating 
that credible capability should be enough to prevent China from 
engaging in the behavior that would necessitate such a 
response. I think that is how the U.S. can preserve deterrence 
and keep the peace in the region, even with this tremendous 
uptick in Chinese A2/AD capability.
    Mr. O'Rourke. I think the commentary about the ADIZ has 
included speculation as to various goals that China may have 
had in mind in announcing the zone. A lot of the commentary 
mentioned the fact that it was intended, as these people saw 
it, in part to strengthen China's position in the dispute over 
the sovereignty of the Senkaku/Diaoyu Islands.
    A second goal that appears in a lot of the commentary is to 
generally strengthen or reinforce China's influence over 
activities in that part of the near-seas region generally, and 
as a part of that, perhaps, to challenge the international 
norms relating to freedom of operation on the high seas and 
international airspace. Some of the commentaries included other 
goals as well, such as driving a wedge between us and Japan or 
putting the United States in the position of being a mediator.
    Mr. Conaway. In your statement, do you actually see that 
working? In other words, is China accomplishing their goals?
    Mr. O'Rourke. The opinions right now are mixed from what I 
have seen in people's reaction and commentary. Some people 
think that China's ADIZ has backfired for China by angering 
many of its neighbors and perhaps encouraging greater 
cooperation among the other countries in that region with the 
United States. Other people see that China has had some 
success, because, frankly, they don't care about that as long 
as they achieve their goal in terms of establishing a new 
reality on the ground or in the air.
    The question you relate to earlier about the role of 
submarines has to do with the fact that this is very much a 
three-dimensional game: It is taking place in the air; it is 
taking place on the ground, in the case of these territories in 
the near-seas area; and also on the water and under the water. 
It is taking place in connection with wartime scenarios and 
scenarios that are short of full war, such as what we are 
seeing with the generalized pressure and initiatives that China 
is placing on its neighbors regarding how it would like to see 
its disputes with these territories resolved. The submarines 
play in part of that, and they don't play in other parts. So it 
depends on what your scenario is.
    Mr. Conaway. My time has expired. But I don't see China 
being unduly impressed with our air capabilities and, hence, 
this air identification zone that they have declared. So I am 
not as confident that they are all that worried about our 
submarines out there.
    So, anyway, thank you all for your-all's opinion. Yield 
back.
    Mr. Forbes. Thank you, Mr. Conaway.
    Ms. Hanabusa is recognized for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chair.
    I think one of the things that I am getting from all of 
your testimonies, and thank you all for being here, is that 
there seems to be a lack of strategy. And you are all coming up 
with different ideas, but there is no overarching strategy 
about what to do.
    Having said that, Mr. O'Rourke, in reading your testimony, 
the thing I was struck about is that you made a clear statement 
about the fact that if we go below the 306 number in terms of 
our fleet, that we are going to have a major problem. Then you 
go on a couple of pages later and you talk about the fleet 
architecture, which then seems to me, okay, we are talking 
about this number, 306, but we are also talking about with A2/
AD that what we need to start to think about is the fleet 
architecture, what would be the best architecture that we would 
have in the region. So can you tell me, 306, fleet 
architecture, what exactly--I mean, if we had to choose between 
one or the other, what would prevail between them?
    Mr. O'Rourke. That is a great question. The 306 is, as you 
know, not just a number per se, it is not just a one-
dimensional figure, it is a figure that has a lot of dimensions 
embedded into it, including the currently planned fleet 
architecture. There is a debate under way as to whether that 
architecture is the most appropriate one for ensuring our 
interests, especially in that part of the world, especially in 
the face of A2/AD systems in the future, especially in a 
situation of constrained defense resources.
    That debate is under way. It has been gaining steam. How it 
is eventually resolved is not yet certain at this point, 
although for the time being, of course, the program of record 
stands.
    If we were to switch to a different fleet architecture, we 
wouldn't be talking about the 306 number anymore. It would be 
some other number that reflected the mix of ships that we would 
then be planning at that point. If the fleet falls short of 
306, and we stick with the current architecture, and this 
happens because of constraints on defense, then one of the 
points I made in my testimony is that the Navy at that point 
would have options for trying to enhance the forward presence 
of the fleet that it did have, whether that was a fleet of 280-
something or 250-something or less. Those options include a 
greater degree of forward homeporting, greater use of 
lengthened deployments, greater use of multiple crewing and 
crew rotation. All those options have certain costs associated 
with them, and they would have to be considered very carefully. 
So there are trade-offs involved here.
    But I think what your question does is it pinpoints the 
fact that there is a nexus between the number that we might 
quote and what kind of fleet that we are talking about, and 
that there is a discussion under way about what that should be, 
especially in the context of constraints on defense forces and 
rising A2/AD capabilities.
    Ms. Hanabusa. Mr. O'Rourke, in the beginning part of your 
testimony, you talk about the fact that you have been following 
and studying China since the 1980s. And I was surprised to know 
that since 2005 your report has been amended, like, 90 times 
plus. But the focus since 1980 for yourself has been China. So 
given that we are here to talk about China and its naval 
modernization, and that is really--if we are being honest about 
what we are doing and what we are studying, that is what we are 
talking about; we are talking about China's modernization and 
how it affects us.
    But one of the testimonies here is saying that what we are 
allowing to happen to us is that China is defining what we are 
then doing. So do you see that as we look at the fleet 
architecture, and as we look at the number 306 or whatever that 
number would be, that we are really looking as responding to 
what we may foresee as a threat to China and how to best combat 
that or be prepared for that? Is that what the underlying, I 
guess, the threshold that we are going to be dealing with?
    Mr. O'Rourke. The debate over fleet architecture has been 
occasioned in part, in large part, by what China is doing and 
the challenge that observers see that posing to the future of 
the Navy and U.S. military generally. Not only China, though; 
it has to do in part with what other countries, particularly 
Iran, is doing in terms of its A2/AD forces in the Persian Gulf 
region.
    But, yes, that is the dynamic that we are in right now. 
Other nations are rising in terms of their military 
capabilities. They are doing so in a certain way, and that is 
causing us to ask whether we are currently on the proper path 
for responding to that.
    Ms. Hanabusa. And you did mention Iran also in your 
testimony. It was ``China parens (Iran)'' and ``A2/AD.'' So I 
guess the question is do you see a point where the United 
States is the power--we are not talking about a hegemonic 
power. We are trying to prevent a hegemonic power, a hegemon, 
from developing in Asia. But notwithstanding, it seems like we 
are reacting to others versus others reacting to us. Would that 
be a correct statement?
    Mr. O'Rourke. I think that is certainly a good issue to 
raise. In devising our strategy, whatever it may be, we should 
ask ourselves whether we are simply reacting to what the other 
side is doing or instead also posing a challenge that the other 
side has to react to.
    If the United States is in a situation of only reacting to 
what the other side is doing, then what in the long run is the 
best we can do in that situation? If we do not put into the mix 
our own initiatives that pose problems for the other side, and 
we restrict ourselves only to reacting to what the other side 
is, how well can we do in the long run? I think that is a 
question we need to ask ourselves and keep in the back of our 
mind.
    Ms. Hanabusa. It comes back to strategy.
    Mr. Chair, I know that it is not blinking, but I am pretty 
sure my time is up. Thank you very much.
    Mr. Forbes. Thank you, Ms. Hanabusa.
    Mr. Courtney is recognized.
    Mr. Courtney. Thank you, Mr. Chairman.
    Dr. Erickson, when you talked about that sort of disruption 
strategy as a smarter response than sort of a full-blown arms 
race or, you know, tit-for-tat kind of approach to China's 
buildup, undersea seemed to be sort of the domain that you, I 
think, stressed was where we have an advantage and also a 
better capability to employ that strategy.
    You know, the Office of Naval Intelligence is saying, 
however, that China is building up its own submarine fleet, and 
that they are going to have 60 submarines in the relatively 
near future. And I guess the question is if your strategy, you 
know, is the approach that the U.S. adopts, is our inventory 
adequate to execute it, even with the two-sub-a-year build rate 
that you mentioned in your remarks?
    Dr. Erickson. Sir, those are excellent questions, and I 
think they cut right to the heart of the matter of how we 
should be prepared to execute what I would advocate, the 
strategy of deterrence by denial, which--I call it a bottom-
line strategy because I see as the bottom line we ought to be 
able to do this. There is a lot more that I hope we could be 
able to do on top of that to include peacetime shaping and 
other capabilities, but at a minimum I think we need to be able 
to do this to keep the peace over time in the region.
    You are absolutely right to refer to analyses that suggest 
that the number of Chinese submarines will continue to 
increase. Obviously, the vast majority of those will be focused 
on the immediate region as opposed to U.S. submarines and other 
forces which are dispersed around the world. And even more than 
quantity, it is the quality that will continue to increase. So 
this is very significant.
    What I should stress, though, is that this increased 
submarine numbers and presence by China does not automatically 
translate into across-the-board antisubmarine warfare [ASW] 
capabilities. In fact, my colleague William Murray at the Naval 
War College calls Chinese approaches to their conventionally 
powered submarines making them aquatic tells or aquatic 
transporter erector launchers; in other words, a large focus on 
missile firing. And if you look at photographs available, you 
will see some load-outs that have a high ratio of anti-ship 
cruise missiles to torpedoes.
    My point there is, yes, China is putting a big focus on 
submarines, but I don't think that negates the points that I 
was making about ASW being a major vulnerability that we can 
target in this regard.
    What I do think this highlights, though, is in order to 
make sure we have that ASW capability, we do need to emphasize 
certainly keeping the current build rate on Virginia-class 
submarines. And I am not an expert on this subject per se, but 
I would say look at the great studies by CBO [Congressional 
Budget Office] and others. The number of U.S. SSNs in the 
outyears going forward, I think, is something we have to keep 
our eyes on very closely. I don't know what the exact number 
is, but if that gets too low, it is really going to have a 
negative impact on our ability to hold this bottom-line 
strategy. And I can tell you that Chinese publications, 
including some fairly serious publications, look very seriously 
at these issues. So by even having these reports come out that 
our numbers may get that low for SSNs, we are sending a 
powerful message to China in that regard, whether we intend to 
or not, and it is not necessarily a message that works in our 
favor.
    Mr. O'Rourke. Just as a quick addendum to what Andrew said, 
even at two per year, as you know, we will experience a 
shortfall in the attack submarine force in the 2020s relative 
to the 48-boat force level goal that forms part of the 306-ship 
fleet.
    And the other thing I would say is that there is nothing 
physically limiting us to two per year. Two per year is the 
current program of record over the next few years before we get 
into the Ohio replacement years, at any rate. But there is 
nothing saying that physically that you couldn't do more than 
two. You could talk about three per year if you wanted, if you 
felt it was a high enough priority, if you felt that was the 
right thing to do, and you wanted to shift the resources into 
that.
    Mr. Courtney. Thank you. Yield back.
    Mr. Forbes. Thank you, Joe.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today and sharing your insights with 
us.
    So obviously today's budgetary constraints are familiar to 
all of us, and some of the hardest decisions that we are going 
to make will be basically trade-offs between the highly 
capital-intensive investments in platform modernization. And in 
the context of the focus on the Asia-Pacific region and the 
PLA's modernization, what military capabilities should we be 
prioritizing, developing, or maintaining? And, in particular, 
are we making strong enough investments in sub service and 
autonomous systems as well as maybe so-called a game-changer, 
next-generation technology such as directed energy and 
electromagnetic rail guns?
    Now, Mr. Thomas, you kind of touched on some of these 
things. Maybe we could start with you.
    Mr. Thomas. Thank you, Congressman. I think you already put 
your finger on two of the things I put on the top of my list, 
which is doing everything we can to maximize the stealth and 
the weapons capacity of our manned submarines, and at the same 
time accelerating development of complementary unmanned 
underwater vehicle capabilities. And how these will work is 
essentially an undersea family of systems, just as we are 
building a long-range strike family of systems in the air 
today.
    I think the second area is looking at game changers in 
terms of how we are going to do air and missile defense in the 
future not only for the fleet, but how we will protect forces 
ashore. Electromagnetic rail gun as well as solid-state lasers 
are two potential directions that we could be pursuing.
    One of the things that is so attractive about these systems 
is, in fact, their ability to free up vertical launch system 
tubes on our surface combatants so we can focus more on 
offensive strike power, land-attack missiles, anti-ship 
missiles, and less on the air and missile defense mission. This 
is a broader concern with our naval investments as a whole, 
which is increasingly we are focusing more on our own self-
defense and less on the offensive striking power that we can 
bring to bear for deterrence.
    The third area that I would point out really is the 
transformation of the carrier air wing. How do we extend the 
reach of that carrier air wing through unmanned, longer-range, 
stealthier, and greater payload systems so that our carriers 
can operate beyond the range of anti-ship ballistic missiles 
and other threats to them and still maintain their punch?
    And the last I would say is an area that is two 
interrelated areas that don't get a lot of attention and aren't 
terribly sexy. One is our fleet logistics that I think we are 
probably underinvested in terms of fleet logistics to support 
forward operations. And related to that is both the types of 
munitions that we have, that we are going to need longer-range 
munitions, stealthier munitions, hypersonic munitions. But we 
are also going to need a greater magazine of them. And we have 
got to find a way to reload our combatants, particularly our 
submarines at sea, so that we can keep them on station longer.
    Submarines are great, and they have a lot of advantages, 
but one of them is they have a very small magazine, and they 
have to return to ports. If we could overcome that problem 
technologically, I think that would a game changer also.
    Mr. Langevin. On that point do you have suggestions of how 
we would actually undertake that kind of a----
    Mr. Thomas. I am not an engineer, but I think the idea of 
rather than switching out missile per tube to actually think of 
entire missile sets of VLS [vertical launch system] cells that 
you could switch out en masse might be part of that. But I 
think we have a long way to go. It is a well-recognized 
problem, but we haven't solved it yet.
    Mr. Langevin. Thank you.
    Mr. O'Rourke, do you have anything that you wanted to add?
    Mr. O'Rourke. Yes. In terms of expanding the capabilities 
of the attack submarine force, we have already talked about the 
option of building Virginia-class boats, we have talked about 
the Virginia payload module. There are a couple of other things 
you could put on that list if you wanted to put more money into 
that area, and some of which we are already doing, and that 
would be to further the development of submarine-launched 
unmanned air vehicles and submarine-launched unmanned 
underwater vehicles to extend the eyes and the ears and the 
reach of the attack submarines.
    Then I also want to call out one program that already is 
under way to modernize our existing Los Angeles-class attack 
submarines, and that is the Acoustic Rapid COTs [commercial-
off-the-shelf] Insertion Program, or the A-R-C-I, ARCI, 
program. This is a very important program for getting increased 
utility out of our existing Los Angeles-class attack submarines 
in terms of their sonar signal processing. It makes them better 
boats, and that is important because they will continue to 
constitute a large share of the attack submarine force going 
many years into the future.
    In terms of the air wing, we talked earlier about the 
UCLASS. We have talked about the issue of payloads for their 
airplanes. And one that I did call out in my testimony and I 
will repeat it here is the option of a new generation of long-
range air-to-air missile. When we were encountering what was 
then called the Soviet sea-denial force, and what in today's 
terminology we would refer to as the Soviet A2/AD force, we had 
the F-14 armed with the Phoenix long-range air-to-air missile, 
and that was going to be succeeded by a next-generation long-
range air-to-air missile called the Advanced Air-to-Air 
Missile, or the AAAM. That missile was under development in the 
late 1980s going into the early 1990s when it was cancelled as 
a result of the end of the cold war.
    But if you want to extend the reach of the strike fighters 
that will continue to make up a large share of the carrier air 
wings alongside whatever UCLASSs we eventually deploy, then you 
would want to look at air-to-air refueling for those strike 
fighters, and you would also want to look at the option of 
giving them a next-generation long-range air-to-air missile, 
which they currently do not have. They only have a medium-range 
missile. So that would be a couple of other possibilities.
    Mr. Langevin. Okay. And let me move on to just one other 
question. Then I will yield back.
    We touched on this already, but the U.S. Office of Naval 
Intelligence does project an unclassified assessment that China 
will have between 313 and 342 submarines and surface combatants 
by 2020. Approximately 60 of those would be submarines, 
potentially, that are able to employ submarine-launched 
intercontinental ballistic missiles or anti-ship cruise 
missiles. My question is do you believe that the projected U.S. 
Navy attack submarine inventory will be able to sufficiently 
counter the submarine inventory of the PLA Navy?
    Mr. O'Rourke. That goes back to the issue I discussed 
earlier about the shortfall in the attack submarine force that 
we will experience in the 2020s going into the early 2030s. 
That creates a period of increased operational risk for the 
submarine force and the Navy as a whole. The Navy can attempt 
to mitigate against that by pushing the maintenance for the 
submarine into the earlier years and the later years so as to 
maximize the operational availability of the attack submarine 
force during that period in question, although that will also 
bear costs on the submarine force in those years prior to and 
after.
    But that is a matter for policymaker judgment about whether 
that operational risk is acceptable or not, and if it is not, 
then you have the option of considering adding additional 
Virginia-class boats into the shipbuilding plan. That has a 
cost associated with it, and in a period of constrained 
resources, doing that would mean not doing something else. That 
is the trade-off that you would have to weigh and decide 
whether in the end the net result was better.
    Mr. Langevin. In your professional opinion, is it an 
unacceptable risk?
    Mr. O'Rourke. I think that in the long run, that is a 
policymaker judgment. What I can tell you is that there is some 
degree of risk, and that during a period of shortfall, whatever 
that risk is, it will be, other things held equal, greater if 
you have a period when the shortfall is in play. But whether it 
is acceptable or not ultimately is something for policymakers 
to judge based on the input that they get from military 
professionals.
    Mr. Langevin. Good.
    Thank you, Mr. Chairman. Yield back.
    Mr. Forbes. Thanks, Jim.
    I just have three questions and I would like each of your 
opinions on this. The first one is this: If I could have a 
little bit larger room here, and I could bring Members of 
Congress and sit them over here, because obviously they have to 
weigh in on the resourcing that we are going to do, and I 
brought our allies over here and I sat representatives from 
them there, do each of you--you were some of the best experts 
we could bring on this. You write, you study, you look at it 
all the time. Could any of you--I am not asking you to do 
this--but could you articulate a U.S.-China strategy right now 
that exists for our country, and would you be able to 
articulate that to Members of Congress or to our allies?
    Mr. Thomas, we will start with you.
    Mr. Thomas. Well, I think the short answer is no. And I 
think we don't have that strategy today. And I think it has to 
be established on multiple levels. Ultimately we need a grand 
strategy, which thinks about the problem from an interagency 
perspective, using all instruments of national power. And this 
gets to this issue of how we think about buying time and a 
long-term strategic competition.
    And then I think it gets down to the military dimension. 
And it has to start with, you know, an understanding of what 
our shared objectives are with our allies. What are we trying 
to accomplish in terms of maintaining the credibility of our 
security commitments and how we sustain those with the shifting 
challenges that are posed by China?
    And then I think it has to get down to the operational 
level, and here I think it has to provide useful guidance on 
how we should think about presenting China with a multiplicity 
of problems that it would have to contemplate before it tried 
to undertake any form of coercion or aggression.
    And here, again, I would just underscore the importance of 
presenting China with a multiplicity of challenges. The harder 
you make this--it cannot rely on some single silver bullet sort 
of solution. It is going to take the entire joint force; it is 
going to take air, surface and undersea, as well as space and 
cyberspace assets, I believe.
    Mr. Forbes. But to the best of your knowledge, no such 
strategy exists right now.
    Mr. Thomas. Yes, sir.
    Mr. Forbes. All right.
    Dr. Cropsey.
    Dr. Cropsey. No such strategy exists. Forming one is 
difficult. When President Eisenhower had the problem with the 
cold war before him and the question of how to deal with the 
Soviet Union, I think you know he ran the Solarium Project, and 
he sat in on the meetings himself. At least that is what the 
record says. Someone with that distinguished a record in 
strategy felt that it was necessary to bring in a group of 
advisers and talk the issue through and sit there himself. 
Probably something like that is needed right now. If you are 
asking what I think we should do----
    Mr. Forbes. Well, I will come back to that another time. I 
just want to know if we have got one right now.
    Dr. Cropsey. We do not.
    Mr. Forbes. Mr. O'Rourke.
    Mr. O'Rourke. I will give you a two-part answer to that. 
One is you have the option of examining the classified war 
plans that we have for that part of the world, and you can 
decide whether those war plans reflect a strategy for 
conducting an upper-level war.
    But to get back to Representative Conaway's point earlier, 
it is not just a matter of war at the high level, it is a 
matter of what is happening on the days when we are not at war 
in the situation short of war that we currently have in the 
East China Sea and the South China Sea, with this pattern of 
pressure and tactics short of outright conflict that China is 
using to pressure and consolidate its control of that area, and 
it is not clear to me that we have a strategy for that. That is 
a strategy that really I think needs to involve our allies 
inherently--it is not something for us to do by ourselves--and 
which the allies need to play a significant role in.
    And so when you say do we have a strategy that we can 
articulate, I don't know about the big war, but at the moment I 
am just as worried about whether we have a strategy for 
countering what China is doing in--currently on a day-to-day 
basis in the situation short of war for putting pressure on its 
neighbors regarding these maritime territorial issues.
    Mr. Forbes. Dr. Erickson.
    Dr. Erickson. This is an excellent point. I could spend a 
lot of time explaining why I think it is important to have 
explicit and understandable strategy, but I assure you I won't 
do that.
    What I will say is I think the U.S. has an implicit 
collection of approaches that together can constitute a 
strategy, but it would be far more effective and clear to all 
the right people if this were brought together in a more 
cohesive framework invoked more consistently. I don't know if 
now is the time, but I can say very briefly what I think that 
strategy----
    Mr. Forbes. I will let you do that another time because we 
are kind of out of time.
    Last question I want to pose to each of you, and it is a 
two-part question, and then we will be done.
    We have talked about China, and sometimes we think they are 
10-foot tall, sometimes we think they are 6-foot tall, but we 
look at these projections of how much money they are spending 
for their military buildup. I would like for each of you to 
tell me, do you think they can sustain this, and if not, why 
not?
    And the second thing is, what do you believe is the likely 
domestic pressure which may force them to do something 
militarily in the next 10 years as opposed to international 
pressures that might come on? And, Dr. Erickson, why don't we 
start with you, and we will work back to Mr. Thomas.
    Dr. Erickson. Yes, Mr. Chairman. That is an excellent 
question, and that gets to the strategic issue of how do we 
approach things.
    I think many people who are experts on China's economy and 
domestic issues would agree with the argument increasingly that 
China is facing a slowdown in the rate of national growth to 
the point that this coming decade will see increasing pressure 
and challenges for China to maintain its trajectory in the 
international system and also domestic support because so much 
of that has been contingent on economic growth.
    And I think the risk is, as it becomes more and more 
difficult to generate a rate of economic growth that is seen as 
desirable for political purposes, the other main pillar of 
legitimacy, nationalism, will increase the chance of pursuing 
not diversionary war per se, but diversionary tension in the 
Yellow and especially the East and the South China Seas.
    Mr. Forbes. Mr. O'Rourke.
    Mr. O'Rourke. I think in recent years there has often been 
an image of China as a juggernaut that is just going to be 
growing at some relentless pace, and that this would eventually 
pose an overwhelming problem. The concern, in fact, may not be 
that the juggernaut continues and that you can straight-line 
their growth, but that their growth will bend over and slow 
down to one degree or another as a result of the buildup of 
debt in the Chinese economy, bad debt, their demographic issue, 
the buildup of environmental issues.
    If that is the case, if their growth line is going to bend 
downward, and if the Chinese Government is aware of that, they 
may see the next few years as their period of maximum 
opportunity for pursuing their goals in the near-seas area. If 
that is the case, then they are going to be in a hurry. They 
are not going to see themselves as a situation in which time is 
necessarily on their side, but one in which time is not 
necessarily on their side. And if that is the case, it says 
something about the urgency of the years ahead and about their 
ability to sustain the kinds of growth and activities that we 
have seen over the last 30 years. It tends to put a premium on 
the next decade, which I think in part was what Andrew's 
presentation was getting at earlier.
    Mr. Forbes. Dr. Cropsey.
    Dr. Cropsey. I agree with my colleagues' assessments about 
the Chinese future. It may not be all rosy. They are going to 
have problems ahead. But are those problems the kind that will 
turn China back into the country that it was before Deng 
Xiaoping? I don't think so. Is China going to revert to a small 
power with a failing economy and accept Third World status 
again or something minor? I don't see that in the future at 
all.
    So I think that while I agree that they have significant 
problems ahead, that that does not mean that we can go home and 
rest easily.
    Mr. Forbes. Mr. Thomas, we will let you have the last word.
    Mr. Thomas. Chairman, I think we share an interest with 
China in the sense that we want a China that is secure and 
prosperous. But I think there are real questions as we look 
ahead for China, whether it is demographically and the 
pressures it faces with the end of cheap labor, the 
environmental problems that are just enormous that it faces, 
very heavy municipal debt that I think goes unreported and 
nonperforming loans, as well as reliance on over-investment and 
infrastructure for GDP [gross domestic product] growth. So 
there are an awful lot of pressures out there that are going to 
require reforms.
    At the same time, I think the honest answer is we simply 
don't know what China's future trajectory is going to be in 
terms of its defense program. I think that a strategy which in 
part helps us to buy time and manage through this period is 
probably the right course, but at the same time we have to 
hedge against continued growth in China's military 
capabilities.
    And as far as domestic pressures for external actions, I 
agree with my colleagues that I think that China's increasing 
reliance on nationalism in its domestic policies as almost a 
replacement for a Communist ideology is of real concern because 
it introduces emotionalism into these discussions over disputed 
islands and so forth, which can lead to inadvertent escalation.
    Thank you.
    Mr. Forbes. Gentlemen, thank you all so much for your work 
in this area. Thanks for your willingness to help this 
subcommittee. All of us, I know, appreciate you being here 
today, your patience with us, and this late hour.
    And, Mr. Conaway, if you or Ms. Hanabusa have nothing else, 
we will be adjourned. Thank you.
    [Whereupon, at 5:45 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           December 11, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 11, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6078.001
    
    [GRAPHIC] [TIFF OMITTED] T6078.002
    
    [GRAPHIC] [TIFF OMITTED] T6078.003
    
    [GRAPHIC] [TIFF OMITTED] T6078.004
    
    [GRAPHIC] [TIFF OMITTED] T6078.005
    
    [GRAPHIC] [TIFF OMITTED] T6078.006
    
    [GRAPHIC] [TIFF OMITTED] T6078.007
    
    [GRAPHIC] [TIFF OMITTED] T6078.008
    
    [GRAPHIC] [TIFF OMITTED] T6078.009
    
    [GRAPHIC] [TIFF OMITTED] T6078.010
    
    [GRAPHIC] [TIFF OMITTED] T6078.011
    
    [GRAPHIC] [TIFF OMITTED] T6078.012
    
    [GRAPHIC] [TIFF OMITTED] T6078.013
    
    [GRAPHIC] [TIFF OMITTED] T6078.014
    
    [GRAPHIC] [TIFF OMITTED] T6078.015
    
    [GRAPHIC] [TIFF OMITTED] T6078.016
    
    [GRAPHIC] [TIFF OMITTED] T6078.017
    
    [GRAPHIC] [TIFF OMITTED] T6078.018
    
    [GRAPHIC] [TIFF OMITTED] T6078.019
    
    [GRAPHIC] [TIFF OMITTED] T6078.020
    
    [GRAPHIC] [TIFF OMITTED] T6078.021
    
    [GRAPHIC] [TIFF OMITTED] T6078.022
    
    [GRAPHIC] [TIFF OMITTED] T6078.023
    
    [GRAPHIC] [TIFF OMITTED] T6078.024
    
    [GRAPHIC] [TIFF OMITTED] T6078.025
    
    [GRAPHIC] [TIFF OMITTED] T6078.026
    
    [GRAPHIC] [TIFF OMITTED] T6078.027
    
    [GRAPHIC] [TIFF OMITTED] T6078.028
    
    [GRAPHIC] [TIFF OMITTED] T6078.029
    
    [GRAPHIC] [TIFF OMITTED] T6078.030
    
    [GRAPHIC] [TIFF OMITTED] T6078.031
    
    [GRAPHIC] [TIFF OMITTED] T6078.032
    
    [GRAPHIC] [TIFF OMITTED] T6078.033
    
    [GRAPHIC] [TIFF OMITTED] T6078.034
    
    [GRAPHIC] [TIFF OMITTED] T6078.035
    
    [GRAPHIC] [TIFF OMITTED] T6078.036
    
    [GRAPHIC] [TIFF OMITTED] T6078.037
    
    [GRAPHIC] [TIFF OMITTED] T6078.038
    
    [GRAPHIC] [TIFF OMITTED] T6078.039
    
    [GRAPHIC] [TIFF OMITTED] T6078.040
    
    [GRAPHIC] [TIFF OMITTED] T6078.041
    
    [GRAPHIC] [TIFF OMITTED] T6078.042
    
    [GRAPHIC] [TIFF OMITTED] T6078.043
    
    [GRAPHIC] [TIFF OMITTED] T6078.045
    
    [GRAPHIC] [TIFF OMITTED] T6078.046
    
    [GRAPHIC] [TIFF OMITTED] T6078.047
    
    [GRAPHIC] [TIFF OMITTED] T6078.048
    
    [GRAPHIC] [TIFF OMITTED] T6078.049
    
    [GRAPHIC] [TIFF OMITTED] T6078.050
    
    [GRAPHIC] [TIFF OMITTED] T6078.051
    
    [GRAPHIC] [TIFF OMITTED] T6078.052
    
    [GRAPHIC] [TIFF OMITTED] T6078.053
    
    [GRAPHIC] [TIFF OMITTED] T6078.054
    
    [GRAPHIC] [TIFF OMITTED] T6078.055
    
    [GRAPHIC] [TIFF OMITTED] T6078.056
    
    [GRAPHIC] [TIFF OMITTED] T6078.057
    
    [GRAPHIC] [TIFF OMITTED] T6078.058
    
    [GRAPHIC] [TIFF OMITTED] T6078.059
    
    [GRAPHIC] [TIFF OMITTED] T6078.060
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 11, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Do you assess that the United States currently 
possesses a relevant and tangible National Security Strategy, Defense 
Strategy, and Military Strategy for successfully addressing China's 
growing regional and global influence? If not, why not?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. Trends in China's defense spending, research and 
development, and shipbuilding industry suggest China will continue its 
naval modernization for the foreseeable future and may field the 
largest fleet of modern submarines and surface combatants in the 
Western Pacific by 2020. What factors do you recommend decisionmakers 
consider when determining the necessary and appropriate U.S. military 
force structure posture to maintain in the Asia-Pacific region?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. The PLA Navy's expanding role in military missions 
other than war and new willingness to operate beyond China's immediate 
periphery creates opportunities to enhance maritime cooperation between 
the United States and China. How do you believe the United States 
military should leverage these opportunities for increased engagement 
with the PLA Navy?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. Regarding United States current and planned naval 
modernization and recapitalization programs, do you believe the 
Department of the Navy is on the right track to project global power in 
the foreseeable future for anticipated missions the Department may have 
to perform in the Asia-Pacific region? What is the Department doing 
well? What are the gaps?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. The challenges associated with fiscal resource 
constraints stemming from the Budget Control Act of August 2011 and 
subsequent sequestration will make it nearly impossible for the 
Department of the Navy to maintain a sufficient force structure 
required to meet all global power requirements in the maritime domain. 
In the context of the ``rebalance to Asia'' strategy, what maritime 
naval capabilities should decisionmakers consider high-priority to 
develop and/or maintain given limited fiscal resources to maximize 
flexibility and elasticity in meeting global force projection 
requirements in the maritime domain?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. Although China's primary maritime focus remains 
regional, Beijing aspires to play a larger role in select global issues 
that will require a naval power projection capability. These ambitions 
are driving the development of PLA Navy capabilities to operate on a 
limited basis outside of the Western Pacific region. At what point in 
time, if ever, do you believe China will be able to project maritime 
global power similar to how the Department of the Navy projects naval 
power in the maritime domain?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. The U.S. Office of Naval Intelligence projects in an 
unclassified assessment that China will have between 313 and 342 
submarines and surface combatants by 2020, including approximately 60 
submarines that are able to employ submarine-launched intercontinental 
ballistic missiles or anti-ship cruise missiles. Do you believe the 
projected U.S. Navy attack submarine inventory will be able to 
sufficiently counter the submarine inventory of the PLA Navy?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. Do you assess that China's naval modernization effort 
forms part of a broader Chinese effort to assert regional influence, 
and if so, how should the United States respond?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. Key characteristics of international order in the Asia-
Pacific region include, among other things, a rules- and norms-based 
system grounded in international law, the use of international law and 
other non-coercive mechanisms for resolving disputes, market-based 
economies and free trade, broadly defined global commons at sea and in 
the air, and freedom of operations in international waters and 
airspace. Do you assess that China's naval modernization effort forms 
part of a broader Chinese effort to alter one or more elements of this 
international order, at least for the Asia-Pacific region, and if so, 
how should the United States respond?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. The United States has obligations to treaty allies in 
the Asia-Pacific region, particularly Japan, South Korea, and the 
Philippines, and certain obligations to Taiwan under the Taiwan 
Relations Act. As China continues to exert sovereignty claims in the 
Asia-Pacific region, such as its declared Economic Engagement Zones in 
the East and South China Seas and its recently declared Air Defense 
Identification Zone (ADIZ) in the East China Sea, how should the United 
States balance international obligations with China's desire to exert 
territorial influence in the Asia-Pacific?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Forbes. Do you assess that the United States currently 
possesses a relevant and tangible National Security Strategy, Defense 
Strategy, and Military Strategy for successfully addressing China's 
growing regional and global influence? If not, why not?
    Mr. O'Rourke. Regarding potential combat operations, the 
subcommittee has the option of examining classified U.S. war plans and 
deciding whether those plans reflect a relevant and tangible U.S. 
wartime strategy. A related issue is whether the strategy reflected in 
classified U.S. war plans should be articulated publicly in 
unclassified form (i.e., be issued as a declarative strategy) for 
purposes of deterring China, reassuring U.S. allies and partners in the 
region, and otherwise shaping the security environment of the Asia-
Pacific region.
    Some observers perceive China to be implementing a concerted 
strategy for gradually asserting and consolidating control of its near-
seas regions using measures, many implemented by Chinese Coast Guard 
ships, that fall short of war. The United States, in addition to 
periodically reiterating U.S. positions regarding the resolution of 
maritime territorial disputes and operational rights in EEZs, announced 
on December 16 an expansion of U.S. regional and bilateral assistance 
``to advance maritime capacity building in Southeast Asia,'' 
particularly Vietnam and the Philippines.\1\ A potential oversight 
issue for the subcommittee would be to see whether the December 16 
announcement is followed in time by other U.S. actions that might 
reflect a more active U.S. strategy for countering the strategy that 
some observers perceive China to be following for gradually asserting 
and consolidating control of its near-seas regions.
---------------------------------------------------------------------------
    \1\ Department of State, ``Expanded U.S. Assistance for Maritime 
Capacity Building,'' fact sheet, December 16, 2013, accessed December 
19, 2013, at: http://www.state.gov/r/pa/prs/ps/2013/218735.htm.
---------------------------------------------------------------------------
    Mr. Forbes. Trends in China's defense spending, research and 
development, and shipbuilding industry suggest China will continue its 
naval modernization for the foreseeable future and may field the 
largest fleet of modern submarines and surface combatants in the 
Western Pacific by 2020. What factors do you recommend decisionmakers 
consider when determining the necessary and appropriate U.S. military 
force structure posture to maintain in the Asia-Pacific region?
    Mr. O'Rourke. Top-level U.S. strategic considerations that 
policymakers may consider in determining U.S. military force structure 
and posture for the Asia-Pacific region include:
    <bullet>  preventing the emergence of a regional hegemon in one 
part of Eurasia or another,
    <bullet>  preserving the U.S.-led international order that has 
operated since World War II,
    <bullet>  fulfilling U.S. treaty obligations, and
    <bullet>  shaping the Asia-Pacific region.
    Additional factors that policymakers may consider include:
    <bullet>  the capabilities of U.S. allies and partners in the 
region, and the likelihood that those capabilities will be committed in 
crisis and conflict scenarios involving China,
    <bullet>  demands for U.S. forces in other parts of the world,
    <bullet>  constraints on U.S. defense resources,
    <bullet>  the benefits and costs of measures such as forward 
homeporting, forward stationing, multiple crewing, and crew rotation, 
and
    <bullet>  industrial-base considerations.
    Mr. Forbes. The PLA Navy's expanding role in military missions 
other than war and new willingness to operate beyond China's immediate 
periphery creates opportunities to enhance maritime cooperation between 
the United States and China. How do you believe the United States 
military should leverage these opportunities for increased engagement 
with the PLA Navy?
    Mr. O'Rourke. Cooperative maritime operations with China's navy can 
be used as an opportunity to:
    <bullet>  marginally reduce demands on U.S. Navy forces for 
performing certain missions (such as the anti-piracy mission),
    <bullet>  demonstrate the professionalism of U.S. naval personnel 
to Chinese personnel,
    <bullet>  build trust among Chinese personnel regarding U.S. 
intentions,
    <bullet>  help reinforce Chinese compliance with existing rules for 
operating ships and aircraft safely in proximity to one another 
(including the October 1972 multilateral convention on the 
international regulations for preventing collisions at sea, commonly 
known as the COLREGs or the ``rules of the road,'' to which both China 
and the United States are parties),\2\ and
---------------------------------------------------------------------------
    \2\ 28 UST 3459; TIAS 8587. The treaty was done at London October 
20, 1972, and entered into force July 15, 1977. A summary of the 
agreement is available online at http://www.imo.org/about/conventions/
listofconventions/pages/colreg.aspx.
---------------------------------------------------------------------------
    <bullet>  demonstrate to China the benefits that China receives 
from the current international order, and China's consequent interest 
in preserving that order.
    Mr. Forbes. Regarding United States current and planned naval 
modernization and recapitalization programs, do you believe the 
Department of the Navy is on the right track to project global power in 
the foreseeable future for anticipated missions the Department may have 
to perform in the Asia-Pacific region? What is the Department doing 
well? What are the gaps?
    Mr. O'Rourke. Regarding the Navy's plans for modernizing and 
recapitalizing the cruise-destroyer force, the replacement of the CG(X) 
and DDG-1000 programs with resumed DDG-51 procurement leaves the Navy 
without a clear roadmap in the 30-year shipbuilding plan for 
accomplishing certain things for the cruiser-destroyer force that were 
to have been accomplished by the CG(X) and DDG-1000 programs, including 
but not limited to the following:
    <bullet>  restoring ship growth margin for accommodating future 
capabilities;
    <bullet>  introducing integrated electric drive technology into a 
large number of ships, particularly for supporting future high-power 
electrical weapons such as high-power lasers; and
    <bullet>  substantially reducing ship life-cycle O&S costs by, 
among other things, reducing crew size.
    Accomplishing the above three items will depend to a large degree 
on when procurement of large surface combatants shifts from Flight III 
DDG-51s to some follow-on design, and on the features of that follow on 
design. Options for the next large surface combatant after the Flight 
III DDG-51 include a further modification of the DDG-51 design (i.e., a 
Flight IV design, which might include a lengthening of the hull to 
accommodate new systems and restore growth margin), the current DDG-
1000 design or a modified version of the DDG-1000 design, and a clean-
sheet design that might be intermediate in size between the DDG-51 and 
DDG-1000 designs.
    Regarding the Navy's plans for developing and procuring new 
aircraft, a potential oversight item for the subcommittee concerns the 
mission definition for the UCLASS carrier-based unmanned aircraft. 
Recent press reporting suggests that there is some debate and 
uncertainty within the Navy regarding whether the UCLASS should be 
designed to be capable of penetrating capable air-defense systems.\3\ 
Given potential constraints on Navy funding and potential future 
mission demands, the subcommittee may also wish to examine the future 
mix of strike fighters on carrier air wings. The current plan is for 
each air wing to include two squadrons of F/A-18E/F Super Hornets and 
two squadrons of F-35C Joint Strike Fighters (i.e., ``2+2''). Potential 
alternative mixes that might be examined include 0+4, 1+3, 3+1, and 
4+0.
---------------------------------------------------------------------------
    \3\ For a discussion, see Dave Majumdar, ``Navy Shifts Plans to 
Acquire a Tougher UCLASS,'' USNI News (http://news.usni.org), November 
12, 2013; USNI News Editor, ``Pentagon Altered UCLASS Requirements for 
Counterterrorism Mission,'' USNI News (http://news.usni.org), August 
29, 2013.
---------------------------------------------------------------------------
    Regarding the Navy's plans for developing and acquiring unmanned 
vehicles (other than the above discussed UCLASS), a potential oversight 
item for the Navy concerns the Navy's plans for transitioning current 
experiments and demonstration efforts in submarine-launched unmanned 
vehicles into procurement programs of record.
    Regarding the Navy's plans for developing and procuring new 
weapons, potential oversight items include the Navy's plans for 
developing and procuring:
    <bullet>  the Long Range Anti-Ship Missile (LRASM) as a next-
generation successor to the Harpoon anti-ship cruise missile;
    <bullet>  a long-range air-to-air missile for use by carrier-based 
strike fighters (no such weapon is currently planned); \4\
---------------------------------------------------------------------------
    \4\ Such a missile might be broadly similar to the Advanced Air-to-
Air Missile (AAAM), a long-range air-to-air missile that was being 
developed in the late-1980s as a successor to the Navy's long-range 
Phoenix air-to-air missile. The AAAM program was cancelled as a result 
of the end of the Cold War.
---------------------------------------------------------------------------
    <bullet>  the previously mentioned anti-torpedo torpedo (ATT);
    <bullet>  the electromagnetic rail gun, including its use as an air 
and missile defense weapon;
    <bullet>  solid-state lasers (SSLs) with beam powers of a few 
hundred to several hundred kilowatts that could be capable of 
countering anti-ship cruise missiles (ASCMs) and perhaps also anti-ship 
ballistic missiles (ASBMs); and
    <bullet>  a megawatt-class free electron laser (FEL).
    Mr. Forbes. The challenges associated with fiscal resource 
constraints stemming from the Budget Control Act of August 2011 and 
subsequent sequestration will make it nearly impossible for the 
Department of the Navy to maintain a sufficient force structure 
required to meet all global power requirements in the maritime domain. 
In the context of the ``rebalance to Asia'' strategy, what maritime 
naval capabilities should decisionmakers consider high-priority to 
develop and/or maintain given limited fiscal resources to maximize 
flexibility and elasticity in meeting global force projection 
requirements in the maritime domain?
    Mr. O'Rourke. Naval capabilities that policymakers might consider 
as candidates for receiving priority in a context of the U.S. strategic 
rebalancing to the Asia-Pacific region and limits on fiscal resources 
include but are not limited to the following:
    <bullet>  platforms that can evade China's A2/AD capabilities--
attack submarines and stealthy aircraft are the examples usually 
mentioned, but they may not be the only examples;
    <bullet>  capabilities of all kinds (both soft-kill and hard-kill) 
for breaking the kill chains of China's A2/AD weapons;
    <bullet>  platforms and weapons that can improve the Navy's ability 
to outrange China's A2/AD capabilities when needed;
    <bullet>  capabilities that can substantially increase surface ship 
magazine depth and, by dramatically reducing cost per shot, 
substantially improve cost-exchange ratios against China's A2/AD 
weapons, such as electronic warfare capabilities, other soft-kill 
mechanisms, electromagnetic rail guns, and lasers;
    <bullet>  technologies for reducing ship operation and support 
(O&S) costs, so that a Navy budget of a given size can more easily 
support a force structure of a given number of ships;
    <bullet>  measures (such as forward homeporting, forward 
stationing, multiple crewing, and crew rotation) that can increase the 
fraction of the fleet that can be forward-deployed sustainably (i.e., 
without overburdening crews or wearing out ships)--although, as 
mentioned earlier, the costs as well as the benefits of such measures 
would need to be weighed;
    <bullet>  capabilities that would be expensive for China to counter 
(i.e., so-called cost-imposing or competitive strategies)--attack 
submarines are often mentioned in this connection; mines and large 
numbers of inexpensive unmanned vehicles might additional examples;
    <bullet>  capabilities for performing missions that, within DOD, 
are performed solely or largely by naval forces, such as ASW or mine 
countermeasures; and
    <bullet>  improved capabilities for other nations in the region 
(particularly the Philippines and Vietnam) for maintaining maritime 
domain awareness (MDA) and defending territorial claims and operational 
rights in the South China Sea.
    Regarding the first part of the question, overall Navy force 
structure and the 30-year shipbuilding plan will be affected in coming 
years not only by the future DOD budget top line as influenced by the 
Budget Control Act or other legislation, but also by additional 
factors, such as the allocation of the DOD budget top line among the 
military departments and by the portion of the DOD budget top line that 
is used for other expenses, including military pay and benefits and 
DOD's so-called overhead and back-office costs. Presentations from the 
Navy, CBO, GAO, or other sources on future Navy force structure and the 
30-year shipbuilding plan sometimes appear to assume little or no 
change in these additional factors, perhaps because there is no 
specific basis that can be cited for assuming a particular change. The 
fact that other organizations choose to assume little or no change in 
these additional factors does not prevent Congress from considering 
such possibilities. The alternative of assuming at the outset that 
there is no potential for making anything more than very marginal 
changes in these additional factors could unnecessarily constrain 
options available to policymakers and prevent the allocation of DOD 
resources from being aligned optimally with U.S. strategy.
    In a situation of reduced levels of defense spending, such as what 
would occur if defense spending were to remain constrained to the 
revised cap levels in the Budget Control Act, the affordability 
challenge posed by the 30-year shipbuilding plan would be intensified. 
Even then, however, the current 30-year shipbuilding plan would not 
necessarily become unaffordable.
    The Navy estimates that, in constant FY2013 dollars, fully 
implementing the current 30-year shipbuilding plan would require an 
average of $16.8 billion in annual funding for new-construction ships, 
compared to an historic average of $12 billion to $14 billion provided 
for this purpose.\5\ The required increase in average annual funding of 
$2.8 billion to $4.8 billion per year equates to less than 1% of DOD's 
annual budget under the revised caps of the Budget Control Act. The 
Congressional Budget Office estimates that, in constant FY2013 dollars, 
fully implementing the current 30-year shipbuilding plan would require 
an average of $19.3 billion in annual funding for new-construction 
ships, or $2.5 billion per year more than the Navy estimates.\6\ This 
would make the required increase in average annual funding $5.3 billion 
to $7.3 billion per year, which equates to roughly 1.1% to 1.5% of 
DOD's annual budget under the revised caps of the Budget Control Act.
---------------------------------------------------------------------------
    \5\ See Report to Congress on the Annual Long-Range Plan for 
Construction of Naval Vessels for FY2014, May 2013, p. 18.
    \6\ Congressional Budget Office, An Analysis of the Navy's Fiscal 
Year 2014 Shipbuilding Plan, October 2013, Table 3 (page 13).
---------------------------------------------------------------------------
    Some observers, noting the U.S. strategic rebalancing toward the 
Asia-Pacific region, have advocated shifting a greater share of the DOD 
budget to the Navy and Air Force, on the grounds that the Asia-Pacific 
region is primarily a maritime and aerospace theater for DOD. In 
discussing the idea of shifting a greater share of the DOD budget to 
the Navy and Air Force, some of these observers refer to breaking the 
so-called ``one-third, one-third, one-third'' division of resources 
among the three military departments--a shorthand term sometimes used 
to refer to the more-or-less stable division of resources between the 
three military departments that existed for the three decades between 
the end of U.S. participation in the Vietnam War in 1973 and the start 
of the Iraq War in 2003.\7\ In a context of breaking the ``one-third, 
one-third, one-third'' allocation with an aim of better aligning 
defense spending with the strategic rebalancing, shifting 1.5% or less 
of DOD's budget into the Navy's shipbuilding account would appear to be 
quite feasible.
---------------------------------------------------------------------------
    \7\ The ``one-third, one-third, one-third'' terminology, though 
convenient, is not entirely accurate--the military departments' shares 
of the DOD budget, while more or less stable during this period, were 
not exactly one-third each: the average share for the Department of the 
Army was about 26%, the average share for the Department of the Navy 
(which includes both the Navy and Marine Corps) was about 32%, the 
average share for the Department of the Air Force was about 30%, and 
the average share for Defense-Wide (the fourth major category of DOD 
spending) was about 12%. Excluding the Defense-Wide category, which has 
grown over time, the shares for the three military departments of the 
remainder of DOD's budget during this period become about 29% for the 
Department of the Army, about 37% for the Department of the Navy, and 
about 34% for the Department of the Air Force.
---------------------------------------------------------------------------
    More broadly, if defense spending were to remain constrained to the 
revised cap levels in the Budget Control Act, then fully funding the 
Department of the Navy's total budget at the levels shown in the 
current Future Years Defense Plan (FYDP) would require increasing the 
Department of the Navy's share of the non-Defense-Wide part of the DOD 
budget to about 41%, compared to about 36% in the FY2014 budget and an 
average of about 37% for the three-decade period between the Vietnam 
and Iraq wars.\8\ While shifting 4% or 5% of DOD's budget to the 
Department of the Navy would be a more ambitious reallocation than 
shifting 1.5% or less of the DOD budget to the Navy's shipbuilding 
account, similarly large reallocations have occurred in the past:
---------------------------------------------------------------------------
    \8\ Since the Defense-Wide portion of the budget has grown from 
just a few percent in the 1950s and 1960s to about 15% in more recent 
years, including the Defense-Wide category of spending in the 
calculation can lead to military department shares of the budget in the 
1950s and 1960s that are somewhat more elevated compared to those in 
more recent years, making it more complex to compare the military 
departments' shares across the entire period of time since the end of 
the World War II. For this reason, military department shares of the 
DOD budget cited in this statement are calculated after excluding the 
Defense-Wide category. The points made in this statement, however, can 
still made on the basis of a calculation that includes the Defense-Wide 
category.
---------------------------------------------------------------------------
    <bullet>  From the mid-1950s to the mid-1960s, reflecting a U.S. 
defense strategy at the time that placed a strong reliance on the 
deterrent value of nuclear weapons, the Department of the Air Force's 
share of the non-Defense-Wide DOD budget increased by several 
percentage points. The Department of the Air Force's share averaged 
about 45% for the 10-year period FY1956-FY1965, and peaked at more than 
47% in FY1957-FY1959.
    <bullet>  For the 11-year period FY2003-FY2013, as a consequence of 
combat operations in Iraq and Afghanistan, the Department of the Army's 
share of the non-Defense-Wide DOD budget increased by roughly ten 
percentage points. The Department of the Army's share during this 
period averaged about 39%, and peaked at more than 43% in FY2008. U.S. 
combat operations in Iraq and Afghanistan during this period reflected 
the implementation of U.S. national strategy as interpreted by 
policymakers during those years.
    The point here is not to argue whether it would be right or wrong 
to shift more of the DOD budget to the Navy's shipbuilding account or 
to the Department of the Navy's budget generally. Doing that would 
require reducing funding for other DOD programs, and policymakers would 
need to weigh the resulting net impact on overall DOD capabilities. The 
point, rather, is to note that the allocation of DOD resources is not 
written in stone, that aligning DOD spending with U.S. strategy in 
coming years could involve changing the allocation by more than a very 
marginal amount, and that such a changed allocation could provide the 
funding needed to implement the current 30-year shipbuilding plan.
    As an alternative or supplement to the option of altering the 
allocation of DOD resources among the military departments, the 30-year 
shipbuilding plan could also become more affordable by taking actions 
beyond those now being implemented by DOD to control military personnel 
pay and benefits and reduce what some observers refer to as DOD's 
overhead or back-office costs. Multiple organizations have made 
recommendations for such actions in recent years. The Defense Business 
Board, for example, estimated that at least $200 billion of DOD's 
enacted budget for FY2010 constituted overhead costs. The board stated 
that ``There has been an explosion of overhead work because the 
Department has failed to establish adequate controls to keep it in line 
relative to the size of the warfight,'' and that ``In order to 
accomplish that work, the Department has applied ever more personnel to 
those tasks which has added immensely to costs.'' The board stated 
further that ``Whether it's improving the tooth-to-tail ratio; 
increasing the `bang for the buck', or converting overhead to combat, 
Congress and DoD must significantly change their approach,'' and that 
DOD ``Must use the numerous world-class business practices and proven 
business operations that are applicable to DoD's overhead.'' \9\
---------------------------------------------------------------------------
    \9\ Defense Business Board briefing, ``Reducing Overhead and 
Improving Business Operations, Initial Observations,'' July 22, 2010, 
slides 15, 5, and 6, posted online at: http://www.govexec.
com/pdfs/072210rb1.pdf. See also Defense Business Board, Modernizing 
the Military Retirement System, Report to the Secretary of Defense, 
Report FY11-05, posted online at: http://dbb.
defense.gov/Portals/35/Documents/Reports/2011/FY11-
5_Modernizing_The_Military_Retirement_
System_2011-7.pdf; and Defense Business Board, Corporate Downsizing 
Applications for DoD, Report to the Secretary of Defense, Report FY11-
08, posted online at: http://dbb.defense.gov/
Portals/35/Documents/Reports/2011/FY11-
8_Corporate_Downsizing_Applications_for_DoD_2011-7.pdf.
---------------------------------------------------------------------------
    One potential way to interpret the affordability challenge posed by 
the Navy's 30-year shipbuilding plan is to view it as an invitation by 
the Navy for policymakers to consider matters such as the alignment 
between U.S. strategy and the division of DOD resources among the 
military departments, and the potential for taking actions beyond those 
now being implemented by DOD to control military personnel pay and 
benefits and reduce DOD overhead and back-office costs. The Navy's 
prepared statement for the September 18 hearing before the full 
committee on planning for sequestration in FY2014 and the perspectives 
of the military services on the Strategic Choices and Management Review 
(SCMR) provides a number of details about reductions in Navy force 
structure and acquisition programs that could result from constraining 
DOD's budget to the revised cap levels in the Budget Control Act.\10\ 
These potential reductions do not appear to reflect any substantial 
shift in the allocation of DOD resources among the military 
departments, or the taking of actions beyond those already being 
implemented by DOD to control DOD personnel pay and benefits and reduce 
DOD overhead and back-office costs.
---------------------------------------------------------------------------
    \10\ Statement of Admiral Jonathan Greenert, U.S. Navy, Chief of 
Naval Operations, Before the House Armed Services Committee on Planning 
for Sequestration in FY 2014 and Perspectives of the Military Services 
on the Strategic Choices and Management Review, September 18, 2013, pp. 
6-10.
---------------------------------------------------------------------------
    Mr. Forbes. Although China's primary maritime focus remains 
regional, Beijing aspires to play a larger role in select global issues 
that will require a naval power projection capability. These ambitions 
are driving the development of PLA Navy capabilities to operate on a 
limited basis outside of the Western Pacific region. At what point in 
time, if ever, do you believe China will be able to project maritime 
global power similar to how the Department of the Navy projects naval 
power in the maritime domain?
    Mr. O'Rourke. China's ability to operate naval forces in more-
distant waters will likely continue to grow, but if ``project[ing] 
maritime global power similar to how the Department of the Navy 
projects naval power in the maritime domain'' is taken to mean a 
capability to operate substantial forward-deployed forces on a 
sustained basis in multiple ocean areas around the world, and to 
project substantial power ashore in one or more of those areas on a 
sustained basis, then I am not sure that China's navy will ever become 
capable of doing that, or that China's leadership would aspire to 
having a navy with that capability.
    The missions assigned to navies reflect the national strategies of 
their parent countries. The ability of the U.S. Navy to operate 
substantial forward-deployed forces on a sustained basis in multiple 
ocean areas around the world, and to project substantial power ashore 
in one or more of those areas on a sustained basis, reflects the United 
States' location in the Western hemisphere and the consequent top-level 
U.S. strategic goal of preventing the emergence of a regional hegemon 
in one part of Eurasia or another. China's geographic setting and 
consequent national strategy differ from those of the United States, 
and may never require a navy that can operate substantial forward-
deployed forces on a sustained basis in multiple ocean areas around the 
world, and project substantial power ashore in one or more of those 
areas on a sustained basis. China's navy will, however, likely develop 
a growing capability to operate in more distant waters on a focused and 
selective basis, and may develop a capability for projecting some 
amount of power ashore from those waters on a focused and selective 
basis.
    Mr. Forbes. The U.S. Office of Naval Intelligence projects in an 
unclassified assessment that China will have between 313 and 342 
submarines and surface combatants by 2020, including approximately 60 
submarines that are able to employ submarine-launched intercontinental 
ballistic missiles or anti-ship cruise missiles. Do you believe the 
projected U.S. Navy attack submarine inventory will be able to 
sufficiently counter the submarine inventory of the PLA Navy?
    Mr. O'Rourke. U.S. Navy operations to counter Chinese submarines 
would be conducted not only by Navy attack submarines, but by aircraft 
and surface ships as well. Conversely, U.S. Navy attack submarines have 
missions other than countering submarines, such as conducting 
intelligence, surveillance, and reconnaissance operations, attacking 
land targets with Tomahawk cruise missiles, tracking and attacking 
surface ships, inserting and recovering special operations forces, and 
detecting and countering mines. So there would likely be U.S. platforms 
other than attack submarines countering Chinese submarines, and 
missions other than countering Chinese submarines being performed by 
U.S. attack submarines. That said, the projected attack submarine 
shortfall will, other things held equal, add some degree of risk during 
the period of the shortfall to the ability of the attack submarine 
force to contribute to U.S. operations for countering Chinese 
submarines and to perform other missions. The Navy can attempt to 
mitigate that risk by taking measures to maximize attack submarine 
availability during the period of the shortfall, such as shifting 
submarine maintenance work outside the shortfall period. Such measures, 
however, might simply spread some of the added risk to neighboring 
years.
    Mr. Forbes. Do you assess that China's naval modernization effort 
forms part of a broader Chinese effort to assert regional influence, 
and if so, how should the United States respond?
    Mr. O'Rourke. Yes, China's naval modernization effort forms part of 
a broader Chinese effort to assert regional influence. Factors that 
policymakers may consider in determining the U.S. response include 
those listed above in response to an earlier question, namely:
    <bullet>  the following top-level strategic considerations:
        <bullet>  preventing the emergence of a regional hegemon in one 
        part of Eurasia or another,
        <bullet>  preserving the U.S.-led international order that has 
        operated since World War II,
        <bullet>  fulfilling U.S. treaty obligations, and
        <bullet>  shaping the Asia-Pacific region, and
    <bullet>  the following additional factors:
        <bullet>  the capabilities of U.S. allies and partners in the 
        region, and the likelihood that those capabilities will be 
        committed in crisis and conflict scenarios involving China,
        <bullet>  demands for U.S. forces in other parts of the world,
        <bullet>  constraints on U.S. defense resources,
        <bullet>  the benefits and costs of measures such as forward 
        homeporting, forward stationing, multiple crewing, and crew 
        rotation, and
        <bullet>  industrial-base considerations.
    Regarding the goal of shaping the Asia-Pacific region, some 
observers consider a military conflict involving the United States and 
China to be very unlikely, in part because of significant U.S.-Chinese 
economic linkages and the tremendous damage that such a conflict could 
cause on both sides. In the absence of such a conflict, however, the 
U.S.-Chinese military balance in the Asia-Pacific region could 
nevertheless influence day-to-day choices made by other Asia-Pacific 
countries, including choices on whether to align their policies more 
closely with China or the United States. In this sense, decisions by 
policymakers regarding U.S. Navy and other DOD programs (as well as 
other measures, including possibly non-military ones) for countering 
improved Chinese naval forces could influence the political evolution 
of the Asia-Pacific, which in turn could affect the ability of the 
United States to pursue goals relating to various policy issues, both 
in the Asia-Pacific region and elsewhere.
    As noted earlier, the Philippines military in particular currently 
has relatively little capability for maintaining maritime domain 
awareness (MDA) and defending its territorial claims and operational 
rights in the South China Sea. In the eastern and southern portions of 
the South China Sea, operations by Chinese Coast Guard ships for 
asserting and defending China's maritime territorial claims and 
operational rights often go uncountered by equivalent Philippine 
forces. To the extent that gradual consolidation of Chinese control 
over parts of the Spratly Islands and other South China Sea features 
such as Scarborough Shoal would affect U.S. interests, policymakers may 
wish to consider the option of accelerating actions for expanding and 
modernizing the Philippines' maritime defense and law enforcement 
capabilities.
    Mr. Forbes. Key characteristics of international order in the Asia-
Pacific region include, among other things, a rules- and norms-based 
system grounded in international law, the use of international law and 
other non-coercive mechanisms for resolving disputes, market-based 
economies and free trade, broadly defined global commons at sea and in 
the air, and freedom of operations in international waters and 
airspace. Do you assess that China's naval modernization effort forms 
part of a broader Chinese effort to alter one or more elements of this 
international order, at least for the Asia-Pacific region, and if so, 
how should the United States respond?
    Mr. O'Rourke. Views among observers on this question vary. My own 
assessment as an analyst is that China's naval modernization effort 
appears to form part of a broader Chinese effort to alter one or more 
elements of the current international order. Specifically, my 
assessment is that China appears, at a minimum, to be seeking to change 
the international order as it relates to freedom of operations in 
international waters and airspace. Although China may be seeking to do 
this only for the Asia-Pacific region, Chinese success in that regard 
would potentially have implications for other regions as well: Since 
international law is universal in its application, changing its 
application in one region would create a precedent for changing it in 
other regions. In addition, my assessment is that China appears to be 
seeking to change the international order as it relates to non-use of 
coercive mechanisms for resolving disputes, at least in the Asia-
Pacific region. Again, views among observers on this question vary; 
some might assess that China's effort goes further than what I have 
described, while others might assess that there is no such broader 
Chinese effort, at least not as a matter of conscious, coordinated 
Chinese policy.
    If policymakers judge that China's naval modernization effort forms 
part of a broader Chinese effort to alter one or more elements of this 
international order, at least for the Asia-Pacific region, there would 
be various options for responding. One possibility would be to 
recognize the issue formally and explicitly in the policymaking process 
and devise an integrated, cross-agency strategy for addressing it. Such 
a strategy might have multiple elements and involve U.S. allies and 
partners in the region.
    Mr. Forbes. The United States has obligations to treaty allies in 
the Asia-Pacific region, particularly Japan, South Korea, and the 
Philippines, and certain obligations to Taiwan under the Taiwan 
Relations Act. As China continues to exert sovereignty claims in the 
Asia-Pacific region, such as its declared Economic Engagement Zones in 
the East and South China Seas and its recently declared Air Defense 
Identification Zone (ADIZ) in the East China Sea, how should the United 
States balance international obligations with China's desire to exert 
territorial influence in the Asia-Pacific?
    Mr. O'Rourke. In seeking to balance U.S. international obligations 
with China's desire to exert territorial influence in the Asia-Pacific, 
one key factor to keep in mind is whether China's actions are 
consistent with customary international law as reflected in instruments 
such as the United Nations Convention on the Law of the Sea (UNCLOS) 
and the October 1972 multilateral convention on the international 
regulations for preventing collisions at sea, commonly known as the 
COLREGs or the ``rules of the road,'' to which both China and the 
United States are parties.\11\ The current international legal regime 
provides mechanisms for resolving maritime territorial disputes that 
can result in decisions in China's favor, and it provides for freedom 
of operations in international waters and airspace that can benefit 
Chinese maritime and air operations not only in China's near-seas 
regions, but around the world. If China's actions to exert territorial 
influence in the Asia-Pacific challenge the current international legal 
regime, it could affect the ability of the United States to fulfill its 
international obligations not only in the Asia-Pacific region, but in 
other regions as well, because, as noted earlier, international law is 
universal in its application, so changing its application in one region 
consequently would create a precedent for changing it in other regions.
---------------------------------------------------------------------------
    \11\ 28 UST 3459; TIAS 8587. The treaty was done at London October 
20, 1972, and entered into force July 15, 1977. A summary of the 
agreement is available online at http://www.imo.org/about/conventions/
listofconventions/pages/colreg.aspx.
---------------------------------------------------------------------------
    Mr. Forbes. Do you assess that the United States currently 
possesses a relevant and tangible National Security Strategy, Defense 
Strategy, and Military Strategy for successfully addressing China's 
growing regional and global influence? If not, why not?
    Dr. Cropsey. The U.S.'s current National Security, Defense, and 
Military Strategy documents contain many admirable principles and 
desired outcomes. The documents neither explain how these outcomes will 
be achieved, what forces are needed to produce the outcomes, nor how 
much these forces will cost. Closest to a strategy for addressing 
China's growing regional and global influence is the current 
administration's idea of a ``rebalance'' to Asia. This is longer on 
soft power than the hard power needed to support it. However, current 
and recent U.S. efforts to improve relations with Vietnam, Myanmar, and 
other Southeast Asian states on China's periphery that fear it are 
worthwhile and should be continued and accelerated. However, this is 
necessary but not sufficient. China is seeking influence around the 
world in the form of investments, presence, cultural exchange, and 
foreign assistance. No sign exists that we have thought through how to 
address this. What's needed is an Eisenhower-like approach similar to 
the Solarium Project but broader in scope since China's wealth makes it 
a more formidable global actor than the Soviets whose ideology had a 
very restricted international appeal for which they had limited funds 
to advance in any event. Congress could play an important role in 
creating such a project whose ideas the current administration might 
not adopt. But thinking through the questions and starting to answer 
them would shape national attitudes and possibly the ideas of a future 
administration. After the ``rebalance'' concept comes the Air-Sea 
Battle concept. It is not a strategy, and does not claim to be one. The 
project I propose ought to have a national security team that would 
examine and make recommendations about U.S. security policy toward 
China. Again, the current administration is not likely to look kindly 
on a hard-headed recommendation about strategy. But, thinking ahead, 
this is what is needed to shape thinking and action for a future 
administration.
    Mr. Forbes. Trends in China's defense spending, research and 
development, and shipbuilding industry suggest China will continue its 
naval modernization for the foreseeable future and may field the 
largest fleet of modern submarines and surface combatants in the 
Western Pacific by 2020. What factors do you recommend decisionmakers 
consider when determining the necessary and appropriate U.S. military 
force structure posture to maintain in the Asia-Pacific region?
    Dr. Cropsey. The under-funded U.S. submarine force that Navy's 30-
year shipbuilding plans anticipates will be smaller than China's 
current subsurface force. During the same three decades Chinese naval 
modernization will continue. Even if the U.S. withdraws its commitments 
from the rest of the world this will put us at a numerical disadvantage 
compared to China which--even without its planners' admiration for the 
ideas of Alfred Thayer Mahan--is likely to concentrate its submarine 
force in the West Pacific. Decision-makers should consider this 
probable imbalance with particular attention because of the littoral 
combat ship's (which is expected to include an ASW module) 
vulnerability to China's growing arsenal of missiles, naval air, and 
the reasonable possibility that the DF-21 missile will become a useful 
instrument of China's anti-access/area denial strategy. Destroying 
Chinese subs should be the U.S. and its allies' strategic objective. 
This precedes using U.S. submarine-launched attacks on Chinese land 
targets which are likely to produce a response against U.S. territory. 
The more of their submarine force that is sunk the safer it will be for 
the U.S. to hold at risk their amphibious capability, control the 
island chains, and maintain their access to such strategic and sea-
borne supplies as energy. U.S. decision-makers should fund not only 
unmanned subsurface drones that augment the capability of our current 
SSN force and the networking capacity that multiplies their combat 
effectiveness, but also a large number of (relatively) inexpensive and 
quieter diesel-electric boats. Besides offering the U.S. submarine 
fleet a low-cost numerical advantage these vessels should be based or 
supplied from our treaty allies in the region thus offering the 
additional benefit of assuring them that we continue to deserve their 
trust. Navy will also need to make important investments in the 
logistics ships that are particularly important for sustaining a naval 
force at the western end of the Pacific. Navy's 30-year plan aims to 
build more logistics ships but the entire plan lies under a cloud--as 
Congress has noted--because of the gulf between the Navy's plans and 
reasonable expectations for funding the SCN account. No appropriate 
posture for the U.S. Pacific Fleet can reasonably ignore the necessity 
of resupplying ships at sea including the ability to re-arm underway. 
Moreover, the Flight III DDG-51-class only puts off the question of the 
character of Navy's surface fleet backbone. By the time they join the 
fleet--in the early `20s--the demand for electrical power from rail 
guns and laser weapons, for example, will likely have exceeded the 
power-generating capacity that the Flight IIIs volume can accommodate. 
Despite submarines' increasing importance in the West Pacific, the U.S. 
cannot maintain a force posture worthy of the name without a resilient 
and dominant surface fleet. The Zumwalt has the needed capacity 
including space for electrical generation. Alternatives include less 
expensive surface ships that perform fewer missions that can be changes 
in the same modular fashion as the LCS. Navy should be making and 
funding decisions about the surface fleet now--one hopes--guided by 
strategy. Finally, although the USAF is taking the increased importance 
of Asia seriously, the Army is well behind and shows few signs of 
catching up. The Army is responsible for the defending our bases in the 
Western Pacific from air and missile attack. Rather than concentrating 
on this mission the Army is looking at Asia as justification for 
maintaining force structure. There may be something to this in holding 
or retaking territory in the island chains that bracket the Asian 
mainland--as the Army did in WWII. But--unlike WWII--we already have 
good positions in WestPac. Our first priority should be to assure their 
safety. Decision-makers would benefit our military posture by looking 
more closely at the air defense of our bases in the region.
    Mr. Forbes. The PLA Navy's expanding role in military missions 
other than war and new willingness to operate beyond China's immediate 
periphery creates opportunities to enhance maritime cooperation between 
the United States and China. How do you believe the United States 
military should leverage these opportunities for increased engagement 
with the PLA Navy?
    Dr. Cropsey. As noted above in the answer to Question 12, China's 
aggressive actions of the past year make this the wrong time to 
increase cooperation with the PLA Navy. If our goal is to encourage 
China to become a stakeholder in the international order we do not 
advance it by rewarding them for behavior that violates international 
norms. However, if and when China ceases territorial and armed 
provocations in the East and South China Seas maritime cooperation with 
the PLAN could include search-and-rescue, disaster relief, and 
humanitarian operations outside the states that border China. There can 
be no point in suggesting to Southeast Asian states on China's 
periphery that Beijing's intentions are benign. Nothing in these 
smaller states' history would lead them to believe it. Africa offers 
the best opportunity for cooperation between the U.S. and China in non-
combatant maritime operations. Ice-breaking if it is needed to open or 
keep open sea lanes through the Arctic offers an opportunity for 
maritime cooperation that has relatively few political implications 
while it assists the most tangible benefit of U.S.-China relations, 
trade. This would be better than the implicit message of U.S.-China 
maritime cooperation in any state whose leaders could conclude that 
cooperation between the two navies implies American collaboration with, 
or approval of, Chinese foreign policy.
    Mr. Forbes. Regarding United States current and planned naval 
modernization and recapitalization programs, do you believe the 
Department of the Navy is on the right track to project global power in 
the foreseeable future for anticipated missions the Department may have 
to perform in the Asia-Pacific region? What is the Department doing 
well? What are the gaps?
    Dr. Cropsey. In many places, as with UAVs, UUVs, rail guns, lasers, 
cyber security, the Navy is on the right technological track. On 
funding platforms the widening gulf between plans and likely funding 
Navy is on the wrong track. On strategy Navy is on no track at all. N3/
5 has been working on revisions to the '07 maritime strategy for years 
and had a publishable document over a year ago. Release has been 
postponed due to the revolving door of admirals responsible for the 
document, unaccountable delays, and what appears to be a lack of 
interest at the senior level of the department. The revised strategy 
was supposed to be published last summer. This was delayed until the 
autumn. Last I heard release has been rescheduled to `sometime soon.' 
``Doing well'' would start with a strategy from which most of 
everything else would flow--at a minimum the justification for 
modernization, weapons, networks, and platforms.
    Mr. Forbes. The challenges associated with fiscal resource 
constraints stemming from the Budget Control Act of August 2011 and 
subsequent sequestration will make it nearly impossible for the 
Department of the Navy to maintain a sufficient force structure 
required to meet all global power requirements in the maritime domain. 
In the context of the ``rebalance to Asia'' strategy, what maritime 
naval capabilities should decisionmakers consider high-priority to 
develop and/or maintain given limited fiscal resources to maximize 
flexibility and elasticity in meeting global force projection 
requirements in the maritime domain?
    Dr. Cropsey. The Air-Sea Battle (ASB) rests on the notion of 
neutralizing China's growing anti-access/area denial capability by 
degrading the C4ISR network on which it depends. This would require--
among other actions--striking targets on China's mainland. China has 
the ability to retaliate against U.S. targets. Such retaliation would 
escalate a conflict where U.S. strategy should seek to contain and end 
it as quickly as possible. A strategy that sought to contain conflict 
could be accomplished by seizing the key nodes of both 1st and 2nd 
island chains as well as securing the land areas that surround the 
straits through which traffic between the Middle East and Asia moves. 
Holding these areas assisted by naval and air support would allow us 
and allies to enforce a blockade with unacceptable economic 
consequences to China. Alternatively, American seapower could destroy 
the PLAN's fleet as quickly as possible. This would have both economic 
and far-reaching military consequences that would encourage an end to 
hostilities. The second strategy would require more naval forces to 
command the seas that surround China. There are other possible 
strategic approaches. They were not the subject of this question. The 
point is that decision-makers' ability to prioritize naval capabilities 
should depend on strategy. The `rebalance to Asia' lacks one. When this 
problem is addressed the question of priorities and fiscal resources 
can be better addressed.
    Mr. Forbes. Although China's primary maritime focus remains 
regional, Beijing aspires to play a larger role in select global issues 
that will require a naval power projection capability. These ambitions 
are driving the development of PLA Navy capabilities to operate on a 
limited basis outside of the Western Pacific region. At what point in 
time, if ever, do you believe China will be able to project maritime 
global power similar to how the Department of the Navy projects naval 
power in the maritime domain?
    Dr. Cropsey. It is not clear that China will ever be able to 
project maritime power globally as does the U.S. The Chinese have many 
obstacles to overcome: the numerical disparity between the coming 
generation's genders, a population that as Nick Eberstadt has put it 
`will grow old before it grows wealthy,' a brittle political system, 
and the likelihood that they cannot sustain the economic growth of the 
previous 30 years for the next three decades to name a few. Any one of 
these will put China's continued rise in jeopardy. Together, they would 
stop it. However, there can be no doubt that Chinese leadership aspires 
to return the nation to the position of global influence it once 
occupied. If it can maintain its double-digit increases in GDP and 
surmount the serious obstacles to continued single-party rule and if 
U.S. seapower maintains its current descending trajectory China will be 
a peer-competitor--or better--before the midpoint of this century. If 
both nations maintain their current seapower trajectories, the best 
chance that China will not equal or surpass us is if they adopt Harold 
Mackinder's idea of controlling the Eurasian landmass and succeed in 
doing so. Then their markets, productive power, strategic commodities, 
and wealth will depend very little on the seas, and we will have other 
much more serious problems than vanishing seapower.
    Mr. Forbes. The U.S. Office of Naval Intelligence projects in an 
unclassified assessment that China will have between 313 and 342 
submarines and surface combatants by 2020, including approximately 60 
submarines that are able to employ submarine-launched intercontinental 
ballistic missiles or anti-ship cruise missiles. Do you believe the 
projected U.S. Navy attack submarine inventory will be able to 
sufficiently counter the submarine inventory of the PLA Navy?
    Dr. Cropsey. I agree with Navy's general assessment that by 2020 
PLAN modernization will not have matured sufficiently to overcome our 
technology and experience with larger numbers of vessels. But China 
knows its technological weakness. It has a strategy of anti-access/area 
denial to compensate for their current technological inferiority. And 
the strategy is based importantly on countering our strength 
asymmetrically--for example, WU-14 hypersonic glide vehicle whose 
testing was reported in the 13 January edition of The Washington Free 
Beacon. (See http://freebeacon.com/china-conducts-first-test-of-new-
ultra-high-speed-missile-vehicle/) The trend line is what we should be 
watching to understand if the projected U.S. submarine inventory will 
be able to counter the PLAN in the future. And the trend line does not 
favor us for many of the reasons already noted in these answers. It is 
based on an unsupportable U.S. Navy shipbuilding plan, China's 
increasing numbers of submarines, and its ever-expanding fleet. It 
would be worth the effort to analyze at what point China's submarine 
fleet will be a match for that which the U.S. is able to dedicate to 
the Western Pacific.
    Mr. Forbes. Do you assess that China's naval modernization effort 
forms part of a broader Chinese effort to assert regional influence, 
and if so, how should the United States respond?
    Dr. Cropsey. I am not convinced that Chinese leadership has decided 
yet what role the PLAN should play globally: I am convinced they 
believe that China was once a major world power and want to restore it 
to its proper place as one. China's interest in anti-access/area 
denial; its investment in systems that would disrupt and degrade U.S. 
forces' dependence on network-centricity; its development of such 
weapons as the DF-21 anti-ship ballistic missile; and its military and 
diplomatic focus on the South and East China Seas are convincing 
evidence that China aims first at asserting regional influence. 
Regional influence will advance the larger and longer-term aim of 
regional hegemony. U.S. policy aimed to prevent the hegemony of a 
continental power in Europe from WWI through the Cold War. We have at 
least as great an interest in preventing it in Asia. The U.S. should 
respond to China's efforts through more effective alliance management 
aimed at convincing regional allies and friends that we will remain the 
dominant Pacific power; by increasing our naval presence in the region; 
by securing our bases against potential Chinese threats; by encouraging 
China--where possible--to cooperate with the U.S. in such non-combatant 
operations as disaster relief and humanitarian assistance; by diverting 
China's attention to the seas through closer diplomatic, commercial, 
and security ties to India and Southeast Asia; and by substantial 
increases in public diplomacy efforts aimed at the Chinese audience as 
well as public diplomacy and other efforts aimed to support the 
Uighurs, Tibetans, and Mongolians. U.S. policy should aim to increase 
the range of problems that China faces on land as a means of diverting 
their attention from the seas. This should also include exploiting 
China's reflexive imitation of American military technology by 
investing in defense programs whose imitation will cost China heavily 
as it forces the PLA to increase its investments in land warfare.
    Mr. Forbes. Key characteristics of international order in the Asia-
Pacific region include, among other things, a rules- and norms-based 
system grounded in international law, the use of international law and 
other non-coercive mechanisms for resolving disputes, market-based 
economies and free trade, broadly defined global commons at sea and in 
the air, and freedom of operations in international waters and 
airspace. Do you assess that China's naval modernization effort forms 
part of a broader Chinese effort to alter one or more elements of this 
international order, at least for the Asia-Pacific region, and if so, 
how should the United States respond?
    Dr. Cropsey. China's military buildup of which naval modernization 
is a part of, but does not fully express, Chinese leadership's 
unconventional view of international order. China's leaders do not 
share our view that international order depends significantly on 
balanced power. Peer competition in China's leaders' view eliminates 
the possibility of true sovereignty. The global instruments that 
Woodrow Wilson envisioned and which were created after WWII are as 
inimical to true sovereignty as the ideas of sovereignty and non-
interference in other state's affairs that were codified in Europe at 
the midpoint of the 17th century. Naval and military forces are means 
to intimidate neighbors and gain psychological and defacto legal 
advantage. Decisive defeat of an enemy remains a possibility but is as 
likely to be achieved by--in the example of the Western Pacific--
denying the U.S. access as by traditional naval engagements. As the 
utility of traditional military engagements recedes such non-kinetic 
means as declaring limited control over international waters and 
airspace; and such psychological/legal instruments as active pressure 
to assert claims in international waters which Chinese leadership has 
said represent core national interests are the evolving battlefield. 
China's respect for international norms, as their actions in the 
Senkakus show, is subordinate to its leaders' pre-modern view that 
sovereignty rests ultimately on an imbalance, rather than a balance, of 
great powers. The U.S. should not abandon its hope and efforts to 
convince China that it can benefit from a liberal international order 
but should add to these a serious and sustained attempt to loosen 
Beijing's central authority, assert the superiority of international 
order based on rules, and the fundamental principles of respect for 
sovereignty as the West has understood and practiced it for nearly 400 
years. Such efforts should be complemented by the understanding that 
China's leaders are not likely soon to change either their views or 
behavior. Our answer should be to respond in terms that Chinese 
leadership respects. Naval power is necessary but in China's view not 
sufficient to achieve the global power they seek. Besides countering 
their non-kinetic approach to accomplishing their grand strategic 
objectives, the U.S. should also emphasize forming and preserving 
effective allied coalitions, increasing our diplomatic and naval 
presence in the region, and building a fleet that maintains the 
superiority we currently enjoy over the PLAN.
    Mr. Forbes. The United States has obligations to treaty allies in 
the Asia-Pacific region, particularly Japan, South Korea, and the 
Philippines, and certain obligations to Taiwan under the Taiwan 
Relations Act. As China continues to exert sovereignty claims in the 
Asia-Pacific region, such as its declared Economic Engagement Zones in 
the East and South China Seas and its recently declared Air Defense 
Identification Zone (ADIZ) in the East China Sea, how should the United 
States balance international obligations with China's desire to exert 
territorial influence in the Asia-Pacific?
    Dr. Cropsey. The U.S. should balance its current international 
obligations against China's territorial ambitions in WestPac on several 
fronts but not at the expense of U.S. core interests in the Persian 
Gulf, Eastern Mediterranean, and Caribbean. Diminished influence in the 
Persian Gulf not only increases risk to our allies' energy supplies. It 
risks allowing Iran to hold the whip hand with the Gulf States upon 
which we remain dependent for oil, regional friends, and a balance to a 
Shia-dominated Middle East. Adding to the large energy reserves which 
have already been discovered off the Israeli and southern Cypriot 
coasts are substantial natural gas discoveries off Greece's Ionian 
coast. The likelihood is that scheduled exploration will produce 
evidence of much more natural gas in the same region. Extracting, 
refining, and transporting these deposits will strengthen our friends 
in the region, address many of their financial problems, offer 
alternatives to the EU's dependence on Russian-supplied energy, and 
provide a bulwark against the radicalization that threatens the Eastern 
Mediterranean littoral from Turkey to Libya. The U.S. has a very small 
flotilla in the Med where once we had a robust Sixth Fleet. This should 
be increased, not diminished to augment WestPac forces. The U.S. has a 
core interest in limiting the flow of drugs from South and Central 
America and maintaining naval presence in the Western Hemisphere. This 
might be decreased by a very few ships but nowhere close to the number 
required to counter the territorial influence that China seeks in the 
Asia-Pacific. U.S. policy should increase naval shipbuilding and its 
associated costs by reallocation of funds within the DoD budget, by 
substantially devolving authority to the military services for 
important defense functions from the currently over-centralized and 
over-staffed agencies in OSD, by grandfathering some benefits to 
military personnel, and by streamlining the heavily bureaucratized, 
inefficient, and needlessly complex process of designing, contracting, 
building, and testing military equipment. At the same time the U.S. 
should adopt the measures needed to counter China's psychological 
pressures, its regional territorial claims, and efforts to establish 
legal support for its claims in the South and East China Seas all of 
which are aimed over time to achieve the same hegemony for which force 
has traditionally been the primary instrument.
    Mr. Forbes. Do you assess that the United States currently 
possesses a relevant and tangible National Security Strategy, Defense 
Strategy, and Military Strategy for successfully addressing China's 
growing regional and global influence? If not, why not?
    Mr. Thomas. The United States lacks a particular, articulated 
strategy for China. The NSS, Defense Strategy, and NMS are all 
universal in their outlooks and do not provide specific strategies with 
meaningful levels of detail for any particular countries or threats. 
These documents are not very useful in marshaling all instruments of 
national power to deal with a specific challenge like a long-term 
strategic competition with China, because they deal with multiple 
problems ranging from terrorism to environmental change. They also tend 
to list objectives without necessarily explaining how their objectives 
might be achieved.
    Mr. Forbes. Trends in China's defense spending, research and 
development, and shipbuilding industry suggest China will continue its 
naval modernization for the foreseeable future and may field the 
largest fleet of modern submarines and surface combatants in the 
Western Pacific by 2020. What factors do you recommend decisionmakers 
consider when determining the necessary and appropriate U.S. military 
force structure posture to maintain in the Asia-Pacific region?
    Mr. Thomas. There are any number of factors that U.S. decision-
makers should weigh in determining the necessary U.S. military force 
structure and appropriate posture to preserve the security balance in 
the Asia-Pacific region. Four in particular stand out in my mind.
    Perhaps most importantly, decision-makers should consider the 
potential of any change or investment to impose disproportionate costs 
on a competitor. Too often we only look at the price tag of an option 
to ourselves rather than consider the costs it might impose on a rival.
    Another factor in determining our posture is the degree to which it 
is distributed so that we can sustain combat operations under attack. 
We have a situation today where we are putting too many of our military 
``eggs'' in to few ``baskets'' in terms of forward bases in the western 
Pacific. Diversifying our basing and access posture would enhance 
deterrence and crisis stability by reducing the opportunity for an 
adversary to deliver a single, no warning ``knockout blow.''
    Third, decision-makers should question our investments in terms of 
whether or not they increase the striking power of our forward naval 
and air forces. Our current investment profile is skewed too much in 
favor of defensive systems to protect our forces rather than increasing 
their combat firepower.
    Finally, it is important not to overlook logistics as a factor. 
Decision makers should ensure that our combat logistics fleet is 
adequate to support high-intensity combat operations in the region. 
This may require increasing the number of logistics ships. It should 
also prompt decision makers to prioritize R&D efforts to facilitate 
reloading weapons at sea rather than transiting long distances back to 
ports.
    Mr. Forbes. The PLA Navy's expanding role in military missions 
other than war and new willingness to operate beyond China's immediate 
periphery creates opportunities to enhance maritime cooperation between 
the United States and China. How do you believe the United States 
military should leverage these opportunities for increased engagement 
with the PLA Navy?
    Mr. Thomas. PLA Navy operations in the Gulf of Aden and elsewhere 
expose Chinese naval personnel to multinational operations. Such 
operations could be further leveraged to impress upon the PLA (N) 
leadership the importance of standardized protocols and procedures such 
as those of NATO or of Coalition Maritime Forces in the Arabian Gulf 
and Arabian Sea. They could also help demonstrate the importance of 
non-commissioned officers, the need for further professionalizing the 
PLA (N), and the importance of adhering to shared norms and modes of 
conduct in international waters. In particular, such operations could 
provide an opportunity for engaging ``next generation'' PLA (N) 
officers, whose worldviews may differ considerably from older 
generations of officers.
    Mr. Forbes. Regarding United States current and planned naval 
modernization and recapitalization programs, do you believe the 
Department of the Navy is on the right track to project global power in 
the foreseeable future for anticipated missions the Department may have 
to perform in the Asia-Pacific region? What is the Department doing 
well? What are the gaps?
    Mr. Thomas. The DoN has made considerable progress conceptually 
since the advent of AirSea Battle. There remains, however, a lack of 
alignment between the DoN's conceptual advances and its investments. 
There are five main shortfall areas that should be addressed as 
priorities:
    The first shortfall is the carrier air wing's viability in the face 
of A2/AD threats, such as land-based anti-ship ballistic missiles and 
submarine and bomber launched anti-ship cruise missiles. The current 
manned strike aircraft the Navy is fielding lack sufficient endurance/
range and all-aspect stealth to conduct carrier flight operations from 
beyond ASBM range and penetrate sophisticated air defense networks. 
Their limited payloads, moreover, limit the number of fixed or mobile 
targets that can be engaged per sortie. The Navy's UCLASS program as 
currently envisaged still falls short of Secretary Mabus' vision of a 
system that can perform in highly contested environments. It is not 
clear it would have all-aspect stealth and its limited payload 
potentially would relegate it to serving only as a spotter for the 
carrier--a role that already can be performed by BAMS--and to serve as 
a communications relay point or inefficient tanker for manned strike 
aircraft. The UCLASS program should be reevaluated to ensure it would 
enable the Navy to exploit the mobility of the aircraft carrier in the 
Asia-Pacific region and provide a credible penetrating strike option.
    The second shortfall is in terms of the Navy's surface fleet as 
currently envisaged. Our cruisers and destroyers devote an increasing 
amount of their payload volume, sensor resources and training time to 
defensive missions. As A2/AD threats improve, this trend will only 
worsen if new capabilities are not fielded to improve their defenses 
and relieve them of some defensive missions. Lasers and electromagnetic 
rail gun will be fielded as demonstration capabilities on ships over 
the next two years. These capabilities should be accelerated and 
deployed on more ships to free VLS cells for offensive strike and 
surface and anti-submarine attack. Also, non-kinetic missile defenses 
will be improved with the fielding of systems such as the Surface 
Electronic Warfare Improvement Program (SEWIP) Blocks 2 and 3. This 
deployment should be accelerated to provide surface ships a non-kinetic 
option to defeat enemy C4ISR and missiles, as well as conduct a range 
of other cyber and electromagnetic attacks. New weapons such as the 
Long Range Anti-Ship Missile (LRASM) should be protected for the long-
term, while in the near-term the SM-6 surface-to-air missile should be 
made surface and land-attack capable to increase the offensive capacity 
of the ships' main battery. Cruisers and destroyers should be relieved 
of defensive escort missions they may be tasked with in a conflict by 
developing an escort frigate. By providing limited area air defense and 
ASW capability for convoys and logistics ships, a frigate will free 
cruisers and destroyers, with their greater weapon and sensor capacity, 
to focus more on offensive missions.
    Undersea warfare represents a third shortfall. The DoN has greatly 
increased the capability and affordability of the Virginia class 
submarine, with the Virginia Payload Module being the most important 
upcoming improvement. But there are limits to a submarine-centric 
approach to undersea warfare. While few navies do ASW well, new 
sensors, the processing power of ``big data,'' and improving long-range 
precision weapons will make ASW easier for more fleets. We should look 
past the submarine being the tactical-level unit in the undersea fight 
and further develop the family of undersea systems including UUVs, 
unmanned fixed and mobile sensors, and aircraft and surface ship 
sensors. With improvements in automation and energy storage, unmanned 
systems will become more practical as tactical units, while manned 
submarines will increasingly be operational-level platforms as the 
carrier or ``big-deck'' amphibious ship is today.
    The fourth shortfall is in munitions. As precision defensive 
weapons systems become more common, successfully striking an enemy 
target will require an increasing number of attack weapons. This will 
put a premium on large magazines, reliable logistics, and at-sea reload 
systems. These capabilities will only be useful, however if the number 
and type of munitions is able to keep up with the demands of a high-
tempo operation. Our current weapons need greater range and 
survivability to reduce the number of weapons needed to successfully 
attack a defended target. At the same time, overall munitions 
inventories need to be increased, at-sea reload capability developed, 
and more magazine space afforded to offense to enable the Navy to 
sustain operations in high-intensity combat.
    The fifth change needed is in expeditionary warfare. The Marine 
Corps would be called on in future Asia-Pacific conflicts to conduct a 
wide range of amphibious operations that do not include a large, multi-
brigade amphibious assault. While the Marine Corps has stated they see 
this emerging need, the DoN's investments and plans do not yet reflect 
the changing nature of amphibious operations. These new operations 
include establishing and sustaining austere rearming and refueling 
bases for F-35B aircraft or conducting raids to eliminate coastal anti-
ship cruise missiles and ISR stations. At the lower end of warfare, 
Marines will be needed to stand by in a growing number of locations to 
evacuate Americans from unstable countries while continuing to be first 
responders to humanitarian disaster. These trends argue for changes in 
the makeup of the ARG/MEU, better expeditionary logistics and perhaps a 
larger and more diverse set of ships capable of conducting amphibious 
operations. While the DoN has talked about the intent to do this, no 
concrete action has yet been taken.
    Mr. Forbes. The challenges associated with fiscal resource 
constraints stemming from the Budget Control Act of August 2011 and 
subsequent sequestration will make it nearly impossible for the 
Department of the Navy to maintain a sufficient force structure 
required to meet all global power requirements in the maritime domain. 
In the context of the ``rebalance to Asia'' strategy, what maritime 
naval capabilities should decisionmakers consider high-priority to 
develop and/or maintain given limited fiscal resources to maximize 
flexibility and elasticity in meeting global force projection 
requirements in the maritime domain?
    Mr. Thomas. The budget reductions of the BCA and subsequent 
Bipartisan Budget Agreement do not prevent DoN from making the most 
important investments for the future while accepting some reductions in 
near-term capacity. Large-scale conflict is unlikely in the next few 
years but the advance and proliferation of A2/AD capabilities will 
require the future fleet to be able to project power in the face of 
sophisticated defenses and while being attacked by long-range precision 
weapons. Four areas are especially important:
    1. UCLASS: This aircraft will need to be a survivable long-range 
strike system with enough payload to destroy defended targets. If the 
aircraft is not long-range or survivable, the carrier will be unable to 
exploit its major advantage over land bases: mobility. Short-range 
tactical aircraft and UAVs will not be able to penetrate an adversary 
air defense envelope from far enough away for the carrier to be able to 
effectively conduct operations.
    2. Submarines and UUVs: The DoN should accelerate development of a 
broader family of undersea systems including unmanned vehicles, 
weapons, sensors, communications and command and control systems.
    3. Weapons: The Navy should accelerate defensive weapons that do 
not place demands on missile magazines such as lasers, railgun and 
high-powered microwave. On offense, long-range survivable weapons able 
to defeat defended targets are needed such as LRASM, SM-6 (for surface 
attack) and intermediate-range conventional ballistic missiles. With 
respect to the munitions inventory, DoD should sustain sufficient 
production capacity to enable increased procurement in the 2020s.
    4. Logistics: Adversary A2/AD capabilities will threaten 
traditional ``just-in-time'' supply chains, while defended targets will 
require an increasing number of munitions to destroy. The Navy's 
current logistics approach will need to be more robust, with more CLF 
ships, dedicated (i.e., frigate) escorts, protected communications and 
an at-sea reload capability.
    Mr. Forbes. Although China's primary maritime focus remains 
regional, Beijing aspires to play a larger role in select global issues 
that will require a naval power projection capability. These ambitions 
are driving the development of PLA Navy capabilities to operate on a 
limited basis outside of the Western Pacific region. At what point in 
time, if ever, do you believe China will be able to project maritime 
global power similar to how the Department of the Navy projects naval 
power in the maritime domain?
    Mr. Thomas. Extra-regional maritime power projection probably 
remains a generational challenge for the PLA. The PLA is unlikely to 
follow the U.S. military playbook and may adopt different approaches to 
power projection. It will require developing new training pipelines, 
establishing a professional cadre of non-commissioned officers, 
constructing a maintenance infrastructure that exceeds the PLA's 
current maintenance posture, creating a rotational base to support 
overseas deployments, and establishing a network of overseas bases and 
facilities to support a more global military presence. There are 
enormous challenges associated with each of these steps. Global naval 
force projection would require success in all of them, which may take 
several decades.
    Mr. Forbes. The U.S. Office of Naval Intelligence projects in an 
unclassified assessment that China will have between 313 and 342 
submarines and surface combatants by 2020, including approximately 60 
submarines that are able to employ submarine-launched intercontinental 
ballistic missiles or anti-ship cruise missiles. Do you believe the 
projected U.S. Navy attack submarine inventory will be able to 
sufficiently counter the submarine inventory of the PLA Navy?
    Mr. Thomas. While the U.S. submarine inventory should not be 
allowed to shrink below the Navy's requirement and ideally should be 
expanded, our submarines are only a small part of countering adversary 
submarines. ASW is primarily conducted by aircraft such as the P-8A and 
MH-60R, surface ships such as the DDG-51 and LCS with the Multifunction 
Towed Array and SQQ-89 sonar processor, and an integrated system of 
manned and unmanned sensors operated from ships and on the ocean floor. 
The DoN continues to make robust investments in this family of ASW 
systems, but this ``traditional'' approach to ASW, developed through 
World War II and the Cold War, will need to change in light of the long 
reach of adversary submarine weapons. The Navy will need to exploit 
advances in sensors and processing to detect enemy submarines farther 
from U.S. forces and employ new approaches to prevent attacks that 
focus on denying enemy submarines an attack opportunity as much as 
trying to sink them outright.
    Mr. Forbes. Do you assess that China's naval modernization effort 
forms part of a broader Chinese effort to assert regional influence, 
and if so, how should the United States respond?
    Mr. Thomas. China's naval modernization effort buttresses its 
political aim to expand its regional influence in several ways. First, 
it confers capabilities that underwrite China's counter intervention 
strategy aimed at restricting U.S. access and denying it naval mastery 
in the western Pacific. Second, it provides options for China to gain 
local sea control and conduct limited regional force projection 
operations in its near seas.
    The U.S. response should include efforts to preserve or expand its 
most viable power projection options, such as extending the reach and 
striking power of its carriers, expanding the strike capacity of its 
undersea forces, and pursuing game changing technologies such as 
electro-magnetic railgun and directed energy systems that could provide 
new defensive options for the surface fleet. The United States should 
also encourage its allies and regional partners to develop their own 
forms of A2/AD systems, such as land-based anti-ship missile batteries 
and mobile air defense systems to defend their sovereign territorial 
waters and airspace in the face of China's maritime expansion.
    Mr. Forbes. Key characteristics of international order in the Asia-
Pacific region include, among other things, a rules- and norms-based 
system grounded in international law, the use of international law and 
other non-coercive mechanisms for resolving disputes, market-based 
economies and free trade, broadly defined global commons at sea and in 
the air, and freedom of operations in international waters and 
airspace. Do you assess that China's naval modernization effort forms 
part of a broader Chinese effort to alter one or more elements of this 
international order, at least for the Asia-Pacific region, and if so, 
how should the United States respond?
    Mr. Thomas. China's naval modernization provides a coercive 
backstop for its non-military efforts to gradually alter the rules and 
norms of the international system in ways that disproportionally favor 
China. An important part of the U.S. response should be bolstering 
frontline maritime states in Asia so that they are less susceptible to 
Chinese coercion. Ultimately, international rules and norms may 
continue to evolve as they have throughout history, but the United 
States has an interest in opposing unilateral efforts by any state to 
alter them.
    Mr. Forbes. The United States has obligations to treaty allies in 
the Asia-Pacific region, particularly Japan, South Korea, and the 
Philippines, and certain obligations to Taiwan under the Taiwan 
Relations Act. As China continues to exert sovereignty claims in the 
Asia-Pacific region, such as its declared Economic Engagement Zones in 
the East and South China Seas and its recently declared Air Defense 
Identification Zone (ADIZ) in the East China Sea, how should the United 
States balance international obligations with China's desire to exert 
territorial influence in the Asia-Pacific?
    Mr. Thomas. The United States should make clear that it stands with 
its allies and regional partners in defending their sovereignty and 
that it opposes any unilateral moves to alter the geo-political status 
quo of the region. This entails bolstering the capabilities of allies 
and partners to defend themselves more effectively against acts of 
coercion or aggression. Increasingly, this requires helping allies and 
partners to deal with incremental paramilitary maritime encroachments. 
Allies and partners will need to respond in kind, by beefing up their 
own paramilitary surveillance forces and coast guards, as well as 
improving their military capabilities for air and sea denial if crises 
escalate.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Given the renewed focus on PLA Navy submarine 
construction, do you believe that our current investments in undersea 
warfare and ASW capabilities and training is sufficient? If not, what 
shortfalls are most concerning?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Langevin. The United States has enjoyed a significant advantage 
in C4ISR capabilities, but China has made significant efforts to 
acquire those same capabilities. Can you please provide additional 
insight as to what this means as far as enabling their other 
modernization investments, as well as areas where Chinese C4ISR is 
still lacking?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Langevin. Foreign Military Sales (FMS) programs serve both as a 
boon to the domestic defense industry and our relationships with 
foreign partners. What additional opportunities exist for the 
enhancement of foreign military sales to other countries in the region 
who are wary of China's increasing activity?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Langevin. In what ways can we encourage additional productive 
Chinese contributions to international security mechanisms?
    Dr. Erickson. [The information was not available at the time of 
printing.]
    Mr. Langevin. Given the renewed focus on PLA Navy submarine 
construction, do you believe that our current investments in undersea 
warfare and ASW capabilities and training is sufficient? If not, what 
shortfalls are most concerning?
    Mr. O'Rourke. Proficiency in ASW takes effort to develop and 
maintain, and can erode quickly in the absence of periodic training and 
exercises. Since the end of the Cold War, Navy officials from time to 
time have expressed concern over erosion of the fleet's ASW 
proficiency. The Navy in recent years has increased ASW exercises and 
training, particularly in the Pacific fleet, with the goal of improving 
the fleet's ASW proficiency. Sustaining a high state of ASW proficiency 
will require continued devotion of resources to ASW training and 
exercises.
    ASW and undersea warfare are conducted by aircraft, surface ships, 
submarines, and unmanned vehicles, using various sensors and weapons. 
Consequently, ASW and undersea warfare encompass a large number of 
platform and equipment programs. Observers might focus on various 
programs as items that might deserve increased oversight attention. In 
my own work, I have called attention to the projected attack submarine 
shortfall (an issue I first identified in 1995 and have testified and 
reported on each year since) and to the value of fielding, sooner 
rather than later, an anti-torpedo torpedo (ATT) that would give Navy 
surface ships a hard-kill option for countering wake-homing torpedoes, 
which are not very susceptible to soft-kill countermeasures such as 
decoys. The projected IOC date for the ATT has shifted back and forth 
from one budget submission to the next in recent years, partly due to 
changes in funding profiles. Another area of potential focus for the 
subcommittee are submarine-launched unmanned aerial vehicles (UAVs) and 
unmanned underwater vehicles (UUVs), which have the potential for 
extending the reach and mission capabilities of attack submarines. The 
Navy for the last several years has conducted numerous experiments and 
demonstrations with various submarine-launched UAVs and UUVs, but has 
not often transitioned these efforts into procurement programs of 
record.
    Mr. Langevin. The United States has enjoyed a significant advantage 
in C4ISR capabilities, but China has made significant efforts to 
acquire those same capabilities. Can you please provide additional 
insight as to what this means as far as enabling their other 
modernization investments, as well as areas where Chinese C4ISR is 
still lacking?
    Mr. O'Rourke. The fielding of improved C4ISR systems will improve 
China's ability to detect, identify, and track adversary ships and 
aircraft, and then target and attack them with anti-ship and anti-
aircraft weapons, particularly longer range weapons such as the ASBM. 
More generally, the fielding of improved C4ISR systems will permit 
China to operate its ships and aircraft in a more networked fashion, 
and thereby improve their collective capability. In these ways, 
improved C4ISR capabilities will permit China to increase the utility 
of China's ships, aircraft, and weapons, and help complete and make 
more robust the kill chains that China needs to execute to employ its 
weapons, especially at longer ranges. Although China is fielding 
improved C4ISR capabilities, China's potential C4ISR weaknesses include 
a lack of operational experience in using these systems (particularly 
in joint operations and combat situations) and the susceptibility of 
these systems to countermeasures such as jamming, spoofing, computer 
network attack, and electromagnetic pulse.
    Mr. Langevin. Foreign Military Sales (FMS) programs serve both as a 
boon to the domestic defense industry and our relationships with 
foreign partners. What additional opportunities exist for the 
enhancement of foreign military sales to other countries in the region 
who are wary of China's increasing activity?
    Mr. O'Rourke. The United States could use FMS arrangements to sell 
frigates, corvettes, patrol craft, land- and sea-based manned aircraft, 
land- and sea-based UAVs, land-based radars, and command and control 
systems to countries in the region, particularly the Philippines and 
Vietnam, with the aim of improving their ability to maintain maritime 
domain awareness (MDA) and defend their territorial claims and 
operational rights in the South China Sea. The Philippines military, in 
particular, currently has relatively little capability for doing these 
things. In the eastern and southern portions of the South China Sea, 
operations by Chinese Coast Guard ships for asserting and defending 
China's maritime territorial claims and operational rights often go 
uncountered by equivalent Philippine forces. To the extent that gradual 
consolidation of Chinese control over parts of the Spratly Islands and 
other South China Sea features such as Scarborough Shoal would affect 
U.S. interests, policymakers may wish to consider the option of 
accelerating actions for expanding and modernizing the Philippines' 
maritime defense and law enforcement capabilities.
    Potential FMS options for surface ships include but are not limited 
to variants of U.S. Navy Littoral Combat Ships (LCSs), variants of U.S. 
Coast Guard National Security Cutters (NSCs), Fast Response Cutters 
(FRCs) and (starting a few years from now) Offshore Patrol Cutters,\12\ 
or variants of other ships that have been built in the United States 
for foreign navies, such as the SAAR 5-class corvettes that were built 
in the 1990s for Israel and the Ambassador IV-class fast attack craft 
that are currently being built for Egypt.
---------------------------------------------------------------------------
    \12\ For more on the NSC, FRC, and OPC programs, see CRS Report 
R42567, Coast Guard Cutter Procurement: Background and Issues for 
Congress, by Ronald O'Rourke.
---------------------------------------------------------------------------
    Mr. Langevin. In what ways can we encourage additional productive 
Chinese contributions to international security mechanisms?
    Mr. O'Rourke. With regard to maritime operations, additional 
productive Chinese contributions to international security mechanisms 
can be encouraged through participation in anti-piracy operations, 
search-and-rescue operations, humanitarian assistance/disaster response 
(HA/DR) operations, multilateral exercises, international fora such as 
Western Pacific Naval Symposium (WPNS) and the North Pacific Coast 
Guard Forum (NPCGF), and bilateral military-to-military discussions. A 
Chinese navy frigate will reportedly help provide security for the U.S. 
government ship that will be used to destroy Syria's chemical weapons.
    Mr. Langevin. Given the renewed focus on PLA Navy submarine 
construction, do you believe that our current investments in undersea 
warfare and ASW capabilities and training is sufficient? If not, what 
shortfalls are most concerning?
    Dr. Cropsey. Even if the funds are available to build one or two 
Virginia-class SSNs annually from 2014 to 2043--and both the 
Congressional Research Service and Congressional Budget Office identify 
shortfalls between traditional funds available for SCN and what the 
Navy must spend to execute the current 30-year plan--the U.S. combat 
fleet will include fewer SSNs in FY43 than China's navy operates today. 
China is modernizing its submarine fleet and will not only increase its 
size but enjoy the advantage of being able to concentrate the 
overwhelming majority of its subsurface fleet in waters immediately 
adjacent to the mainland. Unless the U.S. ends or greatly diminishes 
its current distributed global presence it will still need submarines 
to patrol other parts of the world such as the Persian Gulf and the 
Mediterranean. This is likely to create a strategically significant 
difference between U.S. and Chinese attack sub capabilities in the 
South and East China Seas. Under current plans, this is the greatest 
shortfall. Changing the balance in favor of the U.S. might in part be 
accomplished by the ASW capability of surface ships except that many of 
those we are planning to build (LCS) lack sufficient protection from 
the threat of China's growing missile and naval air forces.
    Mr. Langevin. The United States has enjoyed a significant advantage 
in C4ISR capabilities, but China has made significant efforts to 
acquire those same capabilities. Can you please provide additional 
insight as to what this means as far as enabling their other 
modernization investments, as well as areas where Chinese C4ISR is 
still lacking?
    Dr. Cropsey. China's once inconsiderable amphibious capability has 
developed impressively along with its sheer number of missiles and 
other platforms that threaten Taiwan. China's military is being 
modernized. The modernization includes substantive improvements in 
Chinese C4ISR. Improvements in military hard- and software have 
diminished the security Taiwan once enjoyed as a result of its superior 
technology. The example demonstrates that China can narrow the gap 
between itself and those of its potential adversaries who are 
technically superior. C4ISR is also critical to China's DF-21 missile. 
The missile narrows the same gap between China and U.S. military 
technology. If someone had suggested 20 years ago that China would be 
able to field a weapons system that might be able to target U.S. 
aircraft carriers underway at sea at a distance of 1000 miles, most 
experts would have been amused. They are less so today. There is no 
reason to doubt that China's C4ISR capabilities will substantially 
improve in the future.
    Mr. Langevin. Foreign Military Sales (FMS) programs serve both as a 
boon to the domestic defense industry and our relationships with 
foreign partners. What additional opportunities exist for the 
enhancement of foreign military sales to other countries in the region 
who are wary of China's increasing activity?
    Dr. Cropsey. Had the F-22 production line not been closed, the 
planes should be sold to Japan through foreign military sales. But this 
is moot. More important than FMS is the defense industrial base 
integration with Japan that would allow, to name one example, Japan to 
manufacture the SM-3 missile and sell it to us and other allies thus 
incorporating Japan into the international defense base that helps 
supply the hardware on which democratic states depend for their 
defense. A parallel point applies to Taiwan whose geographic position 
in the middle of the first island chain offers the U.S. a salient in 
any conflict as did England's position relative to the continent in 
WWII. This is particularly important to U.S. and allied security 
because control of the first island chain in China's likely long-term 
plan precedes control of the second island chain (linking the Ogasawara 
island chain with Guam and Indonesia) and finally achieving dominant 
power status in the Pacific and Indian Oceans. The fall or effective 
Finlandization of Taiwan would be a giant stride in China's far-seeing 
strategy. Taiwan has respectable military force and wants submarines to 
protect against amphibious assault and blockade. Our nuclear boats are 
not a realistic option for the Taiwanese, although such air-independent 
propulsion boats as the German company's ThyssenKrupp Type 218SG are. 
No less important are the C4ISR systems which would allow the U.S. and 
Taiwan forces to conduct combined operations. Taiwan doesn't have these 
and should. The U.S. ought to encourage Taiwan to buy them through FMS 
and should use the FMS program aggressively to assure Taiwan's--and 
thus, our--security.
    Mr. Langevin. In what ways can we encourage additional productive 
Chinese contributions to international security mechanisms?
    Dr. Cropsey. The U.S. has invited China to participate in the naval 
exercise RIMPAC 2014. Chinese students attend the Asia-Pacific Center 
in Honolulu. Chinese naval officers regularly join in various functions 
at the Naval War College in Newport. Chinese naval vessels have 
participated for years in multi-national anti-piracy operations off the 
Horn of Africa. At the same time, China has recently declared limited 
control over large portions of international waters in the South China 
Sea and airspace over the East China Sea. A Chinese vessel escorting 
their aircraft carrier, Liaoning, crossed the bow of the guided missile 
cruiser U.S.S. Cowpens which narrowly avoided a collision in December 
2013. And China has been sending patrol ships and aircraft into the 
territorial space of the contested Senkaku Islands, whose sovereignty 
as Japanese territory the U.S. recognizes. Dismissing this as a 
regional spat of no significance compared to trade between the U.S. and 
China ignores what Beijing sees in the matter: an example of successful 
execution of its ``Three Warfares'' strategy which, based on the idea 
that nuclear/kinetic warfare is increasingly irrelevant to achieving 
large strategic objectives, seeks to use psychological pressure, the 
murky sphere of international law, and resource claims to accomplish 
such goals as control over the Senkaku Islands. China's success there 
would validate its Three Warfares strategy, invite more of the same, 
and demonstrate the shallowness of Washington's security commitment to 
Tokyo. Asking China to participate in additional international security 
mechanisms now would send a message that the U.S. has all but abandoned 
its long-standing policy of encouraging China to become a 
``stakeholder'' in the international order that their aggressive 
behavior contradicts. Continued U.S. efforts to persuade China to 
become a stakeholder in the international order should be carefully 
examined as should competitive strategies that would exploit the PLA's 
historic imitation of U.S. technology by encouraging China's military 
to make costly investments in technologies that produce no strategic 
advantage over the U.S. or our allies. But China's aggressive actions 
of the past year suggest that this is the wrong time to reward China by 
including it in additional international security mechanisms.
    Mr. Langevin. Given the renewed focus on PLA Navy submarine 
construction, do you believe that our current investments in undersea 
warfare and ASW capabilities and training is sufficient? If not, what 
shortfalls are most concerning?
    Mr. Thomas. I am concerned about the programmed shrinking of our 
attack submarine fleet, as well as the impending retirement of our 
SSGNs without replacement. A larger submarine force could be an 
important element in a competitive strategy for competing with the PLA 
longer term. As one of the most effective means of penetrating hostile 
maritime A2/AD perimeters, it would make sense to reduce the reliance 
on submarines for ASW. Using SSNs for ASW incurs an opportunity cost in 
terms of foregone strike payloads and training time. Looking ahead, we 
should reduce our reliance on submarines to conduct ASW and rely more 
heavily on relatively more cost-effective surface and air systems, as 
well as unattended undersea surveillance networks. U.S. investment 
strategy should be informed by the potential challenge of having to 
detect, track and engage large numbers of submarines that might be 
flushed from their pens in crisis, as well as the opportunity to 
develop an undersea ``family of systems'' including manned and unmanned 
underwater systems, as well as new classes of submarine-launched 
weapons and undersea sensors.
    Mr. Langevin. The United States has enjoyed a significant advantage 
in C4ISR capabilities, but China has made significant efforts to 
acquire those same capabilities. Can you please provide additional 
insight as to what this means as far as enabling their other 
modernization investments, as well as areas where Chinese C4ISR is 
still lacking?
    Mr. Thomas. C4ISR systems represent a foundational capability to 
enable China's whole approach to A2/AD and a core component of China's 
``battle network'' that enables the PLA's arsenal of precision-guided 
ballistic and cruise missiles, and other strike systems. They are 
critical to detect, locate and track targets, as well as to transmit 
such information to and from headquarters and to support battle 
management. The PLA has made great strides improving its ability to 
detect and monitor naval targets at long ranges (e.g., beyond 200 
miles) with a variety of land-, sea-, air-, and space-based sensors. It 
is unclear, however, how mature the PLA's efforts are to integrate its 
ISR sensors to enable cross-cueing. Sensor integration is critical, in 
particular, for an effective ``kill chain'' to support anti-ship 
ballistic missile attacks.
    Mr. Langevin. Foreign Military Sales (FMS) programs serve both as a 
boon to the domestic defense industry and our relationships with 
foreign partners. What additional opportunities exist for the 
enhancement of foreign military sales to other countries in the region 
who are wary of China's increasing activity?
    Mr. Thomas. Two areas stand out thematically when it comes to 
future FMS. First, it is in the U.S. interest to encourage allies and 
partners to expand their surveillance and early warning coverage of 
their sovereign territorial waters and airspace. Second, as the United 
States already done with the sale of JASSM to Finland and SM-3 to 
Japan, it should consider FMS to expand the missile defense and strike 
options available to allies and partners in the region so that they can 
more equitably share the risks and responsibilities of collective 
defense with the United States.
    Mr. Langevin. In what ways can we encourage additional productive 
Chinese contributions to international security mechanisms?
    Mr. Thomas. There are a number of areas where the United States and 
China would benefit from closer cooperation, and where China could make 
greater contributions. No country is better positioned to influence 
North Korea and move that country toward denuclearization and internal 
reform. China could also play a constructive role in helping to defuse 
Indo-Pakistani tensions and refocus Pakistan's military and 
intelligence service toward addressing jihadist threats internally.
    In East Asia, there are two major steps China could take that would 
contribute significantly to international peace and security. First, 
China could join the United States and Russia in the Intermediate 
Nuclear Forces treaty and relinquish its stockpile of intermediate-
range ballistic missiles, which are destabilizing the regional security 
balance. Second, China should sign codes of conduct with its maritime 
neighbors to govern maritime activities and reduce the potential for 
incidents at sea.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
